<html>
<title> - [H.A.S.C. No. 111-65] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-65] 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

  BUDGET REQUEST FOR THE MILITARY SERVICES' OPERATION AND MAINTENANCE 
                                FUNDING

                               __________

                              HEARING HELD

                              MAY 20, 2009

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

52-113 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 















                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
HANK JOHNSON, Georgia                K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
               Vickie Plunkett, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 20, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for the Military Services' 
  Operation and Maintenance Funding..............................     1

Appendix:

Wednesday, May 20, 2009..........................................    35
                              ----------                              

                        WEDNESDAY, MAY 20, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
        THE MILITARY SERVICES' OPERATION AND MAINTENANCE FUNDING
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Amos, Gen. James F., USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................     8
Chiarelli, Gen. Peter W., USA, Vice Chief of Staff, U.S. Army....     4
Fraser, Gen. William M., III, USAF, Vice Chief of Staff, U.S. Air 
  Force..........................................................     7
Walsh, Adm. Patrick M., USN, Vice Chief of Naval Operations, U.S. 
  Navy...........................................................     5

                                APPENDIX

Prepared Statements:

    Amos, Gen. James F...........................................   104
    Chiarelli, Gen. Peter W......................................    43
    Forbes, Hon. J. Randy........................................    41
    Fraser, Gen. William M., III.................................    86
    Ortiz, Hon. Solomon P........................................    39
    Walsh, Adm. Patrick M........................................    51

Documents Submitted for the Record:

    Chief of Naval Operations memorandum for the Secretary of 
      Defense, dated May 14, 2009, detailing Navy's Fiscal Year 
      2010 (FY10) Unfunded Program List..........................   123

Witness Responses to Questions Asked During the Hearing:

    Ms. Fallin...................................................   128
    Mr. Forbes...................................................   127
    Mr. Heinrich.................................................   128
    Mr. Rogers...................................................   128
    Ms. Shea-Porter..............................................   127

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................   135
    Ms. Giffords.................................................   137
    Mr. Ortiz....................................................   131
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
        THE MILITARY SERVICES' OPERATION AND MAINTENANCE FUNDING

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Wednesday, May 20, 2009.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The subcommittee will come to order, but before 
we move any further I would like to recognize my good friend 
from the great state of Georgia for an introduction. He was so 
impressed that he said, ``I have got to do it this morning.''
    Marshall, go ahead.
    Mr. Marshall. Thank you, Mr. Chairman.
    We have with us members of the German Bundestag. In fact, 
they are members of the Defense Committee of the German 
Bundestag. And I would like the chairlady of the Defense 
Committee to rise, Mrs. Merten.
    [Applause.]
    Mr. Marshall. We all know that Germany is a very, very 
important ally of ours on a number of different fronts, and 
certainly military is one. And to the extent that we can 
increase our coordination development with our sister country, 
we are interested in doing that. And we appreciate you visiting 
with us today.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    And welcome. And if anything gets out of order, call Mr. 
Marshall.
    Today the Readiness Subcommittee meets to hear testimony on 
the military services' fiscal year 2010 operation and 
maintenance (O&M) budget request. I want to thank our 
distinguished witnesses from each of the military services for 
appearing before this subcommittee today to discuss funding for 
the services' readiness programs.
    The operation and maintenance account is the single most 
largest component of the Department of Defense (DOD) annual 
budget request. The military services' O&M accounts provide 
funding for such readiness areas as operating forces, 
mobilization, training, and recruiting, and administration and 
service-wide activities.
    For fiscal year 2010 the O&M portion of the budget request 
comprises $185.7 billion, or 35 percent of the Department of 
Defense's total $533.8 billion baseline request. The fiscal 
year 2010 request increases the O&M account by 3.7 percent, or 
$6.6 billion over fiscal year 2009.
    However, increases in the defense health account for $3 
billion, or nearly half of the overall O&M funding increases in 
fiscal year 2010. Additionally, the Department has requested 
another $74.1 billion for O&M in overseas contingency 
operations (OCO) funding for fiscal year 2010.
    O&M is the largest portion of the OCO request, at 57 
percent, for military operations, subsistence and logistics, 
including predeployment, deployment, and redeployment. The 
fiscal year 2010 O&M budget request basically leaves training 
at a steady state, signaling that the Department would remain 
focused on the counterinsurgency mission vice resourcing full-
spectrum training.
    The fiscal year 2010 budget request relies on the OCO 
funding to achieve air, ground, and sea training at levels 
required to maintain military standards. The fiscal year 2010 
budget request decreases tank training miles to 550 from a high 
of 608 in the fiscal year 2009 budget request, but keeps them 
above the low of 459 in fiscal year 2008.
    Flying hours slightly increase for the Navy in the base 
budget from 17.2, in fiscal year 2009, to 19.0 in fiscal year 
2010, and with the OCO funding climb to 22. The Air Force 
flying hour program has been reduced in the fiscal year 2010 
base budget by $67 million, but Air Force budget documents 
state the budget fully funds the flying hour program at 1.4 
million hours due to the retirement of the roughly, about 250 
aircraft. Additionally, the Navy will rely upon the OCO funding 
to achieve 58 ship steaming days per quarter, compared to a 
steady state level of 45 days in the base budget, putting it 
above the deployed force goal of 51 days per quarter.
    What the subcommittee needs to hear from our witnesses 
today is where each of your services is taking risks in the 
budget request and how this budget request improves readiness. 
And we are very fortunate to have our witnesses today, 
distinguished military leaders, General Peter Chiarelli, Vice 
Chief of Staff of the Army; Admiral Patrick M. Walsh, Vice 
Chief of Naval Operations; and General James F. Amos, Assistant 
Commandant of the Marine Corps; and General William M. Fraser, 
Vice Chief of Staff of the Air Force.
    And we want to thank you so much for joining us today. And 
now I would like to recognize the distinguished gentleman from 
Virginia, the ranking member, Mr. Forbes, for any remarks that 
he would like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 39.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman. And I appreciate the 
time today for us to examine the budget request from the 
services as it pertains to readiness.
    I would like to welcome each of our witnesses. And 
gentlemen, we first of all thank you all for being here today, 
but also thank you for your service to our Nation.
    As the chairman mentioned, the operations and maintenance 
budget accounts for over a third of the $534 billion defense 
budget request. And if you factor in the additional $91 billion 
in operations and maintenance requested for the war in Iraq and 
Afghanistan, that percentage rises even further.
    The amount of funding in this budget request demonstrates 
the considerable oversight responsibility this subcommittee 
has, particularly when your Federal Government is spending 
beyond its means and when our economy is struggling. American 
taxpayers expect that every dollar we direct toward defense is 
spent in the most effective way to protect the Nation.
    But the dollars are not the only component in this budget 
request. The strategic risks we accept in this proposal are 
equally important because there is no bailout or stimulus that 
will help us recover if our Nation is tested in battle and we 
discover that we have not provided the equipment, training, or 
resources that our men and women in uniform need for victory.
    So we need you to help us understand what risks we are 
accepting in the proposed budget, particularly this year, when 
one, the budget was formulated in an accelerated manner; two, 
when the budget proposes major changes to force structure a 
year before the Quadrennial Defense Review (QDR); three, when 
the details of the budget were released just a couple of weeks 
ago; and four, when we have access to only the first year of 
the five-year budget. Your professional input is critical to 
understanding the consequences of this budget request.
    When Secretary Gates testified last week he said that 
everyone who signed the nondisclosure agreement was free of its 
restrictions. And he assured us that we could expect candor in 
the witnesses that came over and testify on the budget. And we 
look forward to a robust dialogue between the witnesses and the 
members of this panel today.
    What is particularly concerning to me in this year's budget 
cycle is this: Over the next few years the Federal budget will 
be in desperate and obvious need of savings because of the 
current expected cost of the bailout and stimulus packages. And 
at a time when adequate defense investment is most vulnerable, 
we are receiving less and less information on the status of our 
forces and the plans for the future from the new 
administration.
    We have not yet been given a 30-year shipbuilding plan in 
this year's budget even though it is required by law. We have 
not been given a naval aviation plan even though that is also 
required by law. And we cannot discuss the results of Navy 
ships readiness reports even though they were unclassified 
through the entire Cold War.
    While I understand the Navy's concern that the detailed 
information contained in those reports could be useful to those 
wishing to do us harm, I can assure you that the American 
people would be surprised to know the state of repair of our 
surface Navy.
    The American people rightfully expect that when it comes to 
our national security members of this committee and officials 
in the Pentagon will keep them informed of the threats we face 
and what we are doing to prepare for those threats. And so it 
is our obligation to share with the American people not only 
what is in this budget to keep us safe, but what is not in the 
budget that presents risks that we are assuming as a Nation.
    As my good friend from Texas, the chairman, Mr. Ortiz, 
likes to say, we want to help you and we can't help you if you 
don't--if we don't know what you need.
    So Mr. Chairman, I thank you again for holding this 
hearing, for your leadership, and I look forward to the 
testimony of our witnesses. I yield back.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 41.]
    Mr. Ortiz. Thank you so much.
    You know, all of us here--we are in the same boat. We work 
for the same government, and I see ourselves, even though we 
are sitting up here, we are part of your team. And we 
appreciate what you have done, not only yourselves--putting 
yourselves in harm's way--but our young men and women who serve 
our country. So thank you so much.
    And now, we will begin with General Chiarelli.
    Your testimony, sir, whenever you are ready to begin.

STATEMENT OF GEN. PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Mr. Chairman, Ranking Member Forbes, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear here today to discuss the current 
readiness of U.S. ground forces. This is my first occasion to 
appear before this esteemed subcommittee, and I pledge always 
to provide you with honest and forthright assessment and my 
best military advice, as requested. I submitted a statement for 
the record, and I look forward to answering your questions at 
the conclusion of my opening remarks.
    As all of you know, it has been a busy time for our 
Nation's military. We are at war. We have been at war for the 
past seven-plus years. During this period, demand has continued 
to grow and the Army's level of responsibility has expanded 
considerably.
    At the same time, our force has become smaller in terms of 
the number of available personnel. The combined effect has been 
increased deployments, shorter dwell, and insufficient recovery 
time for our soldiers and sometimes our equipment.
    Today, it has been previously reported to this 
subcommittee, the Army remains out of balance, and overall we 
are consuming our readiness as fast as we are building it. 
Unfortunately, the Army cannot influence demand, and the 
current level does not appear likely to improve significantly 
for the foreseeable future.
    The Army is expecting to gain some savings over the next 
couple of years, as the last of the units deployed for 15 
months as part of the surge return in September 2009, and as we 
begin the drawdown of forces in Iraq in 2010. If executed as 
planned, these reductions in demand will help to increase dwell 
times for many of our soldiers.
    However, if these plans are delayed or postponed due to 
unforeseen events or a resurgence of tensions in hot spots 
around the world, we will have to find other ways to relieve 
the strain on the force. In the meantime, it remains a top 
priority for the Army's senior leaders, including me, to do 
everything we can to help alleviate some of the stress on 
soldiers and family members.
    In particular, we are committed to improving and expanding 
available behavior health and mental health services. Equally 
important is removing the prevailing stigma associated with 
seeking and receiving help.
    This is going to take time. In the interim, we are trying 
to make it easier for soldiers and family members to take 
advantage of the resources and services that are available as 
discreetly as they deem necessary.
    These are challenging times for our Nation and for our 
military, and with the support of Congress we have deployed the 
best manned, equipped, trained, and led forces in the history 
of the United States Army. I am sure of that.
    It is my personal opinion that if the demand does not go 
down or if expected savings from Iraq are not realized, we 
simply cannot continue to meet the current high level of demand 
and sustain the force, including soldiers and equipment, 
without making some course-mining adjustments. I assure the 
members of the subcommittee that is what the Army's senior 
leaders are focused on right now; we are working through these 
issues and determining the needs of the Army for the future, 
and we will continue to coordinate with senior DOD officials 
and Congress to identify both short- and long-term solutions.
    Chairman, members of the subcommittee, I thank you again 
for your continued and generous support and demonstrated 
commitment to the outstanding men and women of the United 
States Army and their families. I look forward to your 
questions.
    [The prepared statement of General Chiarelli can be found 
in the Appendix on page 43.]
    Mr. Ortiz. Thank you, General.
    The Vice Chief of Naval Operations, Admiral Walsh.

 STATEMENT OF ADM. PATRICK M. WALSH, USN, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Walsh. Chairman Ortiz, Congressman Forbes, and 
distinguished members of the readiness subcommittee, I have 
submitted my written remarks and request your consideration to 
enter them into the record.
    It is a privilege to appear before you today, sir, to 
testify on the readiness of our naval forces. The talented men 
and women, sailors and civilians, of the United States Navy 
continue to perform exceptionally well under demanding 
conditions. Your support has been and continues to be 
fundamental to their success.
    The Navy provides our country a global expeditionary force 
committed to preserving the security and prosperity of the 
Nation, but today 45 percent of the Navy is underway. Our 
sailors are operating with the U.S. Marine Corps, the U.S. 
Coast Guard, and Maritime Coalition partners.
    Additionally, over 13,000 serve ashore in the Central 
Command (CENTCOM) area of responsibility. The Navy is agile, it 
is flexible, it is capable, it is competent to do what no other 
navy in the world can do.
    Combatant commanders want a full-spectrum and responsive 
naval force, and the demand for those forces remains high. The 
Navy is in a forward-deployed posture to represent the enduring 
national interest in the world stage. It deters aggression, 
assures allies, and fosters cooperative relationships to 
enhance global security.
    Our charge is to act as the Nation directs in whatever 
role, in whatever place, at whatever time, whether it is to 
serve as a first responder or as a full-spectrum strategic 
reserve force. Our operating assumption is that we must sustain 
this posture to ensure freedom of access and freedom of action 
on, under, and above the seas to present true options for 
national leadership.
    Therefore, we need continual, critical self-assessments to 
review the balance of issues that affect our ability to sustain 
a forward-deployed full-spectrum force. Today we see the risk 
in warfighting readiness, personnel, and force structure 
programs as increasing, which requires our focus, attention, 
and priority resourcing. While the fiscal year 2010 budget 
aligns with the goals of our maritime strategy, we are assuming 
an increasing level of risk because of challenges associated 
with fleet capacity, increasing operational requirements, and 
growing manpower, maintenance, and infrastructure costs.
    The Fleet Response Plan (FRP) optimizes our ability to 
provide forces to support the maritime strategy by maximizing 
availability, return on investment, and flexibility of 
missions. Specifically, the plan for fiscal year 2010 will 
enable us to deploy three carrier strike groups continuously, 
surge an additional carrier strike group in 30 days, and if 
required, have another ready for deployment in 90 days.
    This year's budget allows us to maintain continued forward 
presence, but as we balance priorities, we have had to adjust 
the overall capacity of our forces in reserve and their 
readiness to surge. It is an adjustment from previous force 
levels, but this adjustment demonstrates the flexibility of the 
Fleet Response Plan because we can tailor our surge response 
capacity and timing for the levels of risk acceptable to the 
combatant commanders, consistent with the prevailing threat and 
geopolitical environment.
    A substantial percentage of the future force is in service 
today--69 percent. The foundation of the Navy's plan for a 
forward-deployed, surge-ready naval force is our ability to 
reach the expected service life for each of our ships. Chief of 
Naval Operations (CNO) is committed to executing the 
technically-determined required maintenance necessary to ensure 
all platforms reach their expected service life.
    We conduct a board of inspection and survey (INSURV) 
material inspection of our ships. These inspections, by design, 
are rigorous, critical, candid, direct, and conducted to 
determine the health of our fleet. I would be concerned with 
the rigor of our inspection regime if we did not see 
discrepancies identified. I echo the CNO's commitment to 
provide this committee the annual report that comes from the 
board of inspection and survey.
    Our people continue to deliver on their commitment to the 
Nation. Retention rates continue to rise across the force. In 
the officer corps, we continue to pay special attention to the 
medical and naval nuclear propulsion communities. While 
incentives and bonuses have contributed to increased retention, 
selective sub-specialties continue to require attention.
    In the enlisted force we are exceeding retention goals and 
continue to see a significant reduction in attrition. Your Navy 
remains ready and capable of meeting challenges today, but the 
stress on the force, our ships, and aircraft is increasing.
    While we can meet operational demands today, we have 
pressurized and stretched the respective resource accounts. 
Achieving the right balance of discipline within our resources 
is essential, otherwise we will not be able to meet our 
responsibilities to respond to additional operational demand, 
take care of our people, conduct essential platform 
maintenance, ensure our fleet reaches its full service life, 
and procure the fleet for tomorrow.
    Thank you for your continued support of our Navy, and I 
look forward to your questions, sir.
    [The prepared statement of Admiral Walsh can be found in 
the Appendix on page 51.]
    Mr. Ortiz. Thank you, Admiral.
    Now, the Vice Chief of Staff of the Air Force, General 
William Fraser.
    Thank you, sir.

 STATEMENT OF GEN. WILLIAM M. FRASER III, USAF, VICE CHIEF OF 
                     STAFF, U.S. AIR FORCE

    General Fraser. Mr. Chairman, Congressman Forbes, 
distinguished members of this committee, it is indeed a 
privilege to appear here this morning and to share with you the 
state of your Air Force's readiness.
    In today's national security environment, with challenges 
across the spectrum of conflict, your Air Force has put 
readiness first. I am proud to report this morning that the 
over 660,000 men and women of America's Air Force are all in. 
We are ready to do whatever it takes to fight and win America's 
wars.
    Despite a continuous high operations tempo and sustained 
deployments for almost two decades now, our Air Force stands 
ready to execute its missions with precision and reliability. 
Now, and into the foreseeable future, we will continue to face 
a wide range of threats to our Nation's security. These threats 
require new solutions, innovative military capabilities, and 
the unwavering resolve of our airmen.
    From advancing our work in irregular warfare and 
counterinsurgency operations to sustaining and maintaining our 
Nation's nuclear deterrent capabilities, we have continued to 
answer the Nation's call. And yet, these challenges have 
brought new stresses on the readiness of our systems, including 
our most important weapons system, our airmen.
    Prioritization readiness means organizing--prioritizing 
readiness means organizing, training, and equipping a force 
capable of meeting our commitments. Through your support, we 
have been able to recruit and retain the individuals necessary 
to meet these sustained and emerging missions, a collective 
force that is properly developed and trained to execute the 
mission, and one that is provided the support programs that 
they and their families so richly need and deserve.
    Our platforms are exhibiting signs of stress, evidence of 
the uncertainties we face by operating them beyond their normal 
service lives. While we continue to extend the service life and 
work to better understand the implications of these extensions 
on the systems, the groundings of multiple aircraft in recent 
years illustrate the need for both continued recapitalization 
and modernization programs.
    Mr. Chairman, Mr. Forbes, members of this committee, we are 
grateful for your steadfast support of our efforts to organize, 
train, and equip the total force. We have stood ready 
throughout our rich history; we proudly stand ready today. And 
through the continued support of this committee and the 
incredible resilience of America's airmen, we will stand ready 
in the future to deliver the capabilities in air, space, and 
cyberspace that our joint and coalition partners expect and 
that our Nation deserves.
    Thank you again for your time this morning, and I look 
forward to your questions.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 86.]
    Mr. Ortiz. Thank you, General.
    Now the Assistant Commandant of the Marine Corps, General 
Amos.
    General.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

    General Amos. Thank you, Chairman Ortiz, Representative 
Forbes, and distinguished members of this subcommittee. Thank 
you for the opportunity to talk to you a little bit about the 
readiness of your Marine Corps.
    As we sit in this hearing room today, there are more than 
30,000 Marines deployed across the globe supporting exercises, 
security cooperation activities, and overseas contingency 
operations. Within the CENTCOM theater of operations alone 
there are 16,000 Marines still left in Iraq and another 6,000, 
going up to 10,000, establishing a presence in Afghanistan.
    Despite high operational tempo, your Marines are resilient, 
they are motivated, they are a happy lot, and they are 
performing superbly in missions across the globe. For the past 
seven years they have been fully engaged in winning in combat. 
This sustained effort and performance has not come without cost 
to the institution, to our equipment, to our strategic 
programs, and most importantly, to our Marines and their 
families.
    Our forward-deployed units are manned, trained, and 
equipped to accomplish their assigned missions, and they report 
the highest levels of readiness. We have taxed, though, our 
nondeployed forces and strategic programs to be the bill-payers 
for that forward-deployed high readiness.
    The majority of our nondeployed forces are reporting, as a 
result, degraded readiness. Because our equipment, personnel, 
and training priorities have been necessarily focused on 
counterinsurgency operations, we have experienced degradation 
in some of our six traditional core competencies.
    Although the current security environment has justified the 
tradeoffs, we must maintain a balanced force capable of 
responding to crises across the globe and across the full range 
of military operations. These operations are supported by the 
fiscal year 2010 baseline and OCO budget request. The $26.5 
million in baseline request and $5.7 billion, which pays for 
operations and maintenance activities, supports equipment 
repair, family support programs, and all the day-to-day 
activities of your Marine Corps.
    The $3.8 billion in O&M funding in our fiscal year 2010 OCO 
request will support both our drawdown in Iraq and our 
increasing operations in Afghanistan. It will support 
transportation costs, repair of equipment, reset, and the day-
to-day operating costs.
    With your continued and consistent support, we will no 
doubt succeed in current operations, take care of our Marines 
and their families, reset and remodernize our equipment, and 
train the Marine Air Ground Task Force for the future security 
operations.
    Sir, I look forward to your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 104.]
    Mr. Ortiz. Thank you so much.
    One of my questions this morning is going to be, if you 
all, the witnesses, could describe the specific areas in your 
fiscal year 2010 budget request where you have knowingly taken 
risks and why you believe it was acceptable to take risks in 
those areas. Now, we are not here to, you know, point fingers 
at anybody, but I know that sometimes you have to make some 
very, very hard decisions.
    But if you would like to tell us why you have to take those 
risks, maybe we, the committee and my good friend, Mr. Forbes, 
and I, and the rest of the members of the committee could be in 
a position to, you know, really help you. We can start with 
General Chiarelli.
    General Chiarelli. Mr. Chairman, if I had to look at where 
I feel we are taking the most risk, I would have to say that it 
is on the assumption that demand will go down. That is my 
biggest concern.
    We are planning on a drawdown from Iraq, which, if it 
happens as planned, will take pressure off the force. I often 
say that my job is to worry about things, and my--and when I 
worry about things, what I worry about is that for some reason 
that will not occur, and that might be if we take forces out of 
Iraq, but there may be something else that occurs, either 
additional requirement for forces in Afghanistan or some other 
hot spot, which puts us in a situation where we have to 
maintain the minimum amount of dwell we are maintaining right 
now for our forces, and that concerns me the most.
    Mr. Ortiz. Admiral Walsh.
    Admiral Walsh. Sir, the lesson that we learned on 9/11 was 
that we did not have a fleet that was available to deploy. So 
the Fleet Response Plan that we put together since then is one 
that gives national leadership a construct in which we present 
forces that are prepared and ready across a full spectrum of 
capabilities.
    The tension that I see is the pressure to drive into the 
baseline, now, effectively, predictions on something that 
describes a world that we just can't predict. And so, the risk 
that we have to begin with, before I get into the specifics, is 
shooting behind the target before 10 ever becomes executable.
    So the challenge that we have is now trying to articulate 
for national leaders what the operating tempo of the new normal 
is for the fleet. In earlier remarks we heard references to 
steaming days, and frankly, the steaming days is a construct 
that we used to have, but the Fleet Response Plan really 
presents to national leadership an availability of forces that 
are either deployed or are surge ready.
    Where you will see us take risks, specifically in the 2010 
budget, is how much capacity we hold in reserve. What we have 
looked at when we have reviewed the utilization of that 
construct since 2003 and 2004, when we first introduced it, is 
that the predominant use of forces is for deployed forces who 
are already underway.
    Now, this doesn't fit into a neat accounting scheme, in 
terms of whether or not we are actually operating in support of 
a war or not, so trying to describe routine in this kind of 
world that we are in since 9/11 becomes especially problematic 
for those who are trying to exert discipline in the baseline as 
well as trying to define, now, in the maritime sphere, what the 
wartime overseas contingency operations really involve. So the 
accounting can sometimes get in the way of actually being 
responsive as the construct that we presented to national 
leadership.
    We think, when we look at the use of the FRP over time, 
that on several occasions, both Katrina or in non-combatant 
evacuation operation (NEO) operations in support of Lebanon, we 
have relied on a cold start for ships that were in this surge 
capacity. Predominantly, we will use forces that are already 
underway and extend those forces as required in order to meet 
new national demand.
    So what you are seeing now is a reflection of cutting back 
on some of the surge capacity that we have. To Representative 
Forbes' comments earlier about concerns about overall ship 
maintenance, I see this as an opportunity to get time, which is 
not very well articulated in any of this other than that we 
have an operating capacity of about 45 percent underway today. 
And I do think this will allow us time to do the deep sort of 
maintenance work and inspections that are required in order to 
reassess, again, where we are today in terms of the overall 
health of the fleet.
    Mr. Ortiz. General Amos.
    General Amos. Mr. Chairman, we have successfully, as a 
Nation, misjudged what the future holds almost consistently. 
Our record--our track record--for many, many years, not through 
lack of effort or through lack of skilled Americans trying to 
determine what the future holds, we have nonetheless misjudged 
it more often than not.
    My point is, we don't know what the future holds. 
Specifically, in the Marine Corps we have worked hard in the 
last couple of years to try to push as much into the baseline 
and make those hard decisions--for instance, manpower, cost of 
manpower, and those types of things--and we have worked hard at 
that. So the risk for this year in 2010 is--and really the 2009 
and 2010 OCO--resides in the supplemental and the reset, the 
reconstitution, of your Marine Corps forces.
    We have a significant amount of money hinged in the OCO 
requirements for deeper level maintenance for all that 
equipment that is in the process of retrograding out of Iraq 
now and will continue to be over the next 12 to 15 months. That 
equipment has to be rebuilt. It has to be triaged; it has to be 
redistributed. And that that is cost-ineffective, we will 
disregard it. We will get rid of it. But we have a significant 
amount of money in the supplemental for 2010 and 2009 that 
deals with modernization.
    The other point I would make that we are taking risk in, 
sir, is, because we are singularly focused, as an institution, 
on counterinsurgency operations, we, as a Marine Corps for you, 
are taking risks in these other core competencies that we--that 
you expect, and in some cases by law task the Marine Corps to 
be able to do--forcible entry operations, other operations that 
we would call full-spectrum. So all that is kind of tied with 
this thing called the current fight that we are in. We are not 
grousing about it, and as I said in my opening statement, we 
are performing well in it.
    But the reset of the Marine Corps is hinged almost 
exclusively on the supplementals. And we are taking risks 
there, should the supplemental not find its way into our 
coffers. Thank you.
    Mr. Ortiz. General Fraser.
    General Fraser. Thank you, sir.
    As an institution, I think the biggest challenge that we 
have had is trying to come up with the right balance--the right 
balance across all the core competencies that we, as an 
institution, provide for this Nation. And as my colleagues have 
already stated here, it is not being able to predict what the 
future is going to hold is to make sure that we stay focused on 
today's fight and do everything that we can with the 
capabilities that we have, while bringing on new capabilities 
as we see them evolve, bring them into the baseline.
    But we can't take our eye off the future, and we don't want 
to sacrifice the future for today. So finding that right 
balance is something that is very important for us.
    The other thing that I would say is, we are finding out 
more and more about our aircraft as the fleet continues to age. 
And so, we have had to do some things that we had not 
anticipated with our aircraft fleet as they do get closer to a 
service life extension program--establishing a fleet viability 
board, where we can better understand the stresses upon the 
aircraft that we have, and then what is that right balance, 
from a technical standpoint, to either go for recapitalization 
or modernization of a particular fleet.
    We think there is an opportunity here that we can take, a 
bit of a strategic pause and some additional risk, which is why 
you will see in our budget we have recommended for a combat air 
forces reduction so that we can utilize those savings, both in 
dollars and in manpower, for both emerging missions, but yet, 
setting ourselves on what we think is the right path for the 
future.
    So it is the challenge of striking that right balance 
across the myriad of missions and our core competencies that we 
have, and then bringing that into the base budget as we look to 
the future is our biggest challenge right now. Thank you, sir.
    Mr. Ortiz. Well, thank you so much for being candid with 
you--with us, because this is the only way we can help you. And 
I know there is a lot of problems out there, but we want to see 
what we can do to help you.
    Now I yield to my good friend for questions.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all of you for being here today and for your 
expertise. I want to begin by telling you something I think you 
already know, and that is the tremendous amount of respect that 
the members of this subcommittee have for one another, the 
tremendous amount of respect we have for each of you.
    But we each have to come here each time we have a meeting 
and we have to wrestle with the difficulty of asking tough 
questions and then going back and saying, ``Was that question 
embarrassing? Did I ask it too harshly?''
    Or, we walk back and say, ``Did I not ask a question that 
could have impacted the national defense of this country?'' So 
this morning the questions that I ask you--if I ask anything 
that catches you off guard or is embarrassing or whatever, you 
don't have to answer it. Just tell me, ``I don't want to answer 
it,'' and maybe come back and get it for the record for us, 
because that is not our intention; it is just our intention to 
try to get at facts that are there.
    Admiral Walsh, I want to first of all thank you for your 
testimony, and I want to preface this by saying, when Secretary 
Gates was here he told us that we could rely on you being able 
to say whatever any of you felt was the correct answer. You 
didn't have to come in here with the Department position or 
service position--that we could ask you your opinions.
    And so all of my questions this morning to all four of you 
are for your opinions, because we have enormous confidence in 
you and in your integrity and what you are saying to us.
    Admiral, I am concerned because, as you know, the law 
requires that when the budget is sent over to us that the 
Secretary must send a shipbuilding plan over. And he also then 
needs to give a certification. That certification needs to be 
that the budget that is sent over will meet the plan, so that 
the Chairman, and I, and other Members of Congress can say, 
``This is our plan. We have got a plan, and we know that the 
Secretary believes that this budget will meet the plan.''
    If it won't meet the plan, he has to submit to us the risks 
that we are taking for not fully funding that budget that will 
meet the plan. As you know, the Secretary has not submitted 
that plan. Based on the testimony that we have, he doesn't 
intend to submit that plan until next year.
    I would like to ask you--and again, if you can't answer 
today, please come back to the record--what legal right does 
the statute provide to simply not comply with that statute?
    Admiral Walsh. I wouldn't pretend to be a lawyer, nor could 
I be able to offer you a legal interpretation. I will give you 
a common sense answer, sir, if that is okay.
    Mr. Forbes. Sure.
    Admiral Walsh. First of all, there is a new team on board. 
The new team has, in my view, placed greater emphasis on a QDR 
that is far sooner than I would have expected with the new 
administration. So in terms of following the Secretary's 
guidance, it seems to me one of the challenges that we have and 
the rule set that we are given, in terms of presentation of a 
budget, is that we don't have an understanding of what the out 
years look like largely because of the unanswered questions and 
insights derived from the Quadrennial Defense Review. That is a 
priority established by our national leadership, and we can 
simply--I don't see how we have any room for interpretation on 
that.
    The challenge with the 30-year shipbuilding plan 
historically has been the lack of stability and predictability 
for those in the ship building industry to have some reliable 
document to refer to, so when they make their plans for their 
labor force, for the skills and when they work with sub-
vendors, that they have got an understanding of what the future 
looks like. If we were to go forward with a presentation of a 
30-year shipbuilding plan without having an understanding of 
what fiscal year 2011, 2012, 2013, 2014 look like, then I run 
the risk of creating further problems for the industry.
    So the stability at the industry is part of the covenant 
that we have in order to be able to come before the committee, 
and I think we would do more harm than good to try and submit 
something without the full understanding of what the 
administration and the team want to do in the out years for the 
Department of the Navy. I simply do not have those insights.
    I acknowledge the requirement by law. I don't think there 
is an intent here to work around the law. I do think there are 
some practical implications of where we are today with a new 
team that is on board that is still trying to find where it 
wants to go in terms of overall national security strategy, 
Quadrennial Defense Review, and other documents here that are 
critically important to the overall alignment of resources and 
the direction that the country wants to go in.
    Mr. Forbes. And Admiral, I would just ask if you would, 
after looking at this, maybe respond back for the record on 
anything else that comes before you. But if you look at that 
statute, it covers exactly the situation that you have raised, 
and it says until we get a new shipbuilding plan, we are to use 
the existing shipbuilding plan that is in effect.
    So what the law required was that the Secretary submit to 
us the existing shipbuilding plan. If he wants to change it, 
that is okay--change it down the road, okay. But then, at least 
to say, ``This budget will not meet that shipbuilding plan, and 
here are the risks that we take.''
    It isn't just for the industry. It is for us to be able to 
see it too, because if we don't have a plan and we just hear 
goals of 113 ships but we don't have a plan to link it up, we 
don't have a clue whether we are getting there or not.
    So I would ask, as you go back, if you could look at that 
and perhaps give us whatever the Navy's justification is for 
not submitting that, other than just, ``We don't want to do 
it.''
    And please don't take that offensively, because I don't 
mean it that way. It is just, I don't see the option in the 
statute for the Secretary just to come in and say, ``We are 
just not going to do it for a year,'' even if he wants to 
change that.
    Second thing I would like to ask, and then I will move on, 
we are told that--not just told; I have a letter here from the 
Secretary to each of the Chiefs stating that on unfunded 
requirements for 2010, that he expects them to first inform him 
of a determination of what they are before they are to meet 
with Congress and let Congress know.
    Are you aware of that letter?
    Admiral Walsh. I am aware of what Navy's unfunded 
requirements are. I can speak to those. I don't know that I 
have seen, necessarily, that letter.
    Mr. Forbes. Okay. And I am going to ask each of you all the 
same thing, but the letter was dated--we have a copy of it from 
April 30, 2009, and it is basically, from the Secretary, saying 
that before you give this to Congress that he says, ``I expect 
you to first inform me of such a determination so we can 
schedule the opportunity for you to brief me on the details.''
    So the question I would ask is, on that unfunded mandates 
list, are you aware of whether any such meeting took place with 
the Secretary when the Navy carried its unfunded mandates list 
to him?
    Admiral Walsh. My understanding was that CNO had an 
opportunity to discuss this with the Secretary.
    Mr. Forbes. Was there a difference between the unfunded 
mandates list submitted to the Secretary and the one that has 
been submitted to Congress now?
    Admiral Walsh. Yes, sir.
    Mr. Forbes. Can you tell us what that difference was?
    Admiral Walsh. Yes, sir. Back to your previous question, I 
understand your question and will get back to you, sir, on the 
30-year shipbuilding plan.
    And to this question in particular, what we have found 
recently is a review of cost estimates associated with the P3 
red stripe. In particular, what we have learned is that we had 
gone with the contractor's estimate, which was a very 
conservative estimate that suggested a much more thorough level 
of maintenance was required for the re-winging of P3s affected 
by a red stripe issue.
    Once we got inside the wings and took another look at it, 
we did not find the fatigue level or cracks in the wing box 
that the contractor had previously recommended that we review. 
So you are seeing a difference of about $465 million between 
the original request that went into the office of the Secretary 
and what actually came out.
    There is an internal memo from us to the Secretary that 
requests to delete that. So that was initiated on our part 
because we can take care of the P3 maintenance issue through 
authorized and appropriated funds.
    Mr. Forbes. And Admiral, I would just ask you, if you don't 
mind, if you could submit that for the record so we can see the 
difference.
    [The information referred to can be found in the Appendix 
on page 123.]
    Mr. Forbes. And then the last question I would like to ask 
you is this: Last year the Navy had a $4.6 billion unfunded 
mandate request. This year we have a $395 million request--less 
than $0.5 billion. That is over $4 billion different. Was that 
unfunded mandate list changed based on risk assessment or 
budgetary needs?
    Admiral Walsh. I don't know that I witnessed any particular 
conversation that took place between comparing the unfunded 
list in 2009 to the unfunded list submitted in 2010, nor do I 
get a sense of an effort by outside forces to reduce that list 
from what the service actually asked for. Instead what I see is 
a recognition that a substantial amount of the national budget 
is tied up in debt and that the services are really taking a 
very disciplined approach about how to sustain themselves.
    The idea that we can go forward in 2010 and still receive 
aircraft, ships, submarines is critically important to the 
future of the Navy, and also recognizes the commitment that 
this committee and others have given on behalf of us. So I 
think the effort going in now is to sustain the service life of 
those accounts, particularly in aviation and shipboard 
maintenance. And what you are seeing is an unfunded list that 
will bring that level to 100 percent funding.
    If the CNO was given an extra dollar that is exactly where 
it would go. It would go into the maintenance accounts rather 
than for additional procurement, at this point, sir.
    Mr. Forbes. And Admiral, I would just close my questions 
with you by just asking if you could submit for the record an 
explanation of how we got from $4.6 billion of needs last year 
to $395 million of unfunded needs this year, because I don't 
think our risk has changed markedly, and second, I know we 
didn't fund enough to make up that differentiation. So if you 
could give us that for the record, I would appreciate it.
    [The information referred to can be found in the Appendix 
on page 127.]
    Admiral Walsh. Yes, sir.
    Mr. Forbes. And General, same question for you. I know that 
the Army must have had an unfunded mandate list that it carried 
in to the Secretary. I am assuming it complied with this letter 
as well.
    If you could, at some point in time, just let us know if 
there were any differences between what the Army submitted as 
its unfunded mandates list and what it then submitted to 
Congress, between the meeting with the Secretary and the 
meeting here. But then the second thing I would ask: If you can 
tell us, last year we had $4 billion of unfunded mandate 
requests--unfunded lists, I am sorry--from the Army; this year 
less than $1 billion. How did we go from $4 billion to $1 
billion?
    General Chiarelli. I guess I would have to agree with 
General--Admiral Walsh on this. I think all the services are 
looking very, very hard, given the economic situation in the 
country, to see if we can't do our best to make those lists as 
small as possible.
    I had the opportunity to be in the meeting with the 
Secretary of defense and represent the Chief, and I will tell 
you, our list went up. The list that I am told the Chief 
submitted last night went up by, I believe, about $600 million.
    Mr. Forbes. I am sorry, General, went up from what?
    General Chiarelli. It went up from our original list that 
we had submitted, which was just over, if I remember right, 
$300 million. So we went to just short of $1 billion in the 
list that was submitted, I am told, last night.
    Mr. Forbes. General, did anyone give any direction to 
reduce those sums down based on budgetary concerns?
    General Chiarelli. No. I think it is just the understanding 
of all of us that as we watch the economy of the country and 
see what we, as a Nation, are going through right now, that we, 
the services, need to do everything we possibly can to control 
those costs.
    Mr. Forbes. And General, again--and each of you, please 
understand, I am trying to ask these as respectfully as I can 
just to get the answers, so this is nothing with you--I fear 
that we have shifted from our strategy driving our budget to 
our budget driving our strategy.
    And the question I am looking at is, last year we had $4 
billion of unfunded requests. Undoubtedly, that was based on a 
risk assessment that you were looking at and needs that you 
felt the Army needed to meet that risk assessment. My question 
for you is, is that reduction from $4 billion to less than $1 
billion based on a reduced risk assessment that you feel, or 
was it driven by budgetary concerns?
    General Chiarelli. I believe it was driven by what the 
Chief thinks is really needed. I think he has been quite clear, 
in working the Army toward an enterprise approach to everything 
we are doing, that we have got to control costs. And this has 
been a focus of his; it is a focus of all of ours to look at 
ways that we can, in fact, control costs.
    Mr. Forbes. And the last question I would just ask you, 
then, if you would submit for the record for me why the Army 
felt they needed $4 billion in unfunded requests last year but 
have now determined that they really didn't need those 
requests, and submit that for the record so that we can look at 
that, General, I would appreciate that.
    [The information referred to can be found in the Appendix 
on page 127.]
    General Chiarelli. I will do that, sir.
    Mr. Forbes. And then, General, if I could ask you on the 
Air Force the same thing: We had $18.4 billion of unfunded 
requests last year; we are down to $1.9 billion this year. Are 
you aware of a list that--of unfunded requests that went to the 
Secretary that is different from the one coming to Congress?
    General Fraser. Sir, I am aware of the list that went in, 
the discussion that was held, and there were not changes, based 
on what I was told, that came out of that meeting and what was 
actually submitted.
    Mr. Forbes. And if that is the answer--and I am sure you 
are telling the absolute truth--can you tell us whether the 
reduction from $18.4 billion last year to $1.9 billion this 
year was a result of a change in risk assessment, or was it 
driven by budgetary concerns?
    General Fraser. Sir, we looked at the requests that came 
over for an unfunded list. We wanted to go into that realizing 
that we needed to be fiscally responsible. We wanted to focus 
on today's fights and what was underfunded as we built the 2010 
budget.
    Mr. Forbes. And General, without interrupting, I just need 
to ask you--I would assume that you had that same concern last 
year, that you wanted to be fiscally responsible last year as 
well. Wouldn't that be a fair statement to stay?
    General Fraser. Yes, sir. Not being in this position at 
that time, I----
    Mr. Forbes. Whoever was in that position, I am sure would 
have had that same end?
    General Fraser. Yes, sir.
    Mr. Forbes. Do you feel that they were not fiscally 
responsible last Congress when they submitted the $18.4 billion 
request?
    General Fraser. No, sir. It would be inappropriate for me 
to comment. I was not a part of that at that particular time.
    But I know the guidance that we gave as we looked at 2010, 
we wanted to fix the items that we felt like were underfunded 
and that we needed to take care of for this fight nowadays. We 
also wanted to accelerate some capabilities into the fight to 
have a positive impact, so that was another area that we wanted 
to focus on, which was something that we certainly took a look 
at.
    The other guidance that we had given was, no new starts. 
And so that is why I say we wanted to take a look, and the 
guidance that we gave to the staff as they were bringing this 
forward was to fix the things that were underfunded and then 
accelerate capabilities to today's fight, realizing, sir, that 
as we go to 2011 we are going to be informed, though, by the 
results of the Quadrennial Defense Review. We have other 
studies and analyses that are going on and that we will utilize 
that to then better inform us on what we build in the out 
years.
    Mr. Forbes. And General, last question I have is for you. 
Same thing with the Marines, we were $3 billion unfunded needs 
last year; we are $188 million this year. If you could submit 
for the record the difference between what the Marines 
submitted to the Secretary and what was ultimately submitted to 
Congress, and also, if you could tell us if that reduction was 
based on a change in risk assessment or if it was based on 
budgetary concerns.
    [The information referred to can be found in the Appendix 
on page 127.]
    General Amos. Sir, I will do that gladly.
    If I could make a anecdotal comment, I also was present, 
along with General Chiarelli, and presented the Marines' 
unfunded list to Secretary of Defense, and it was very 
enlightening when the Secretary said--and I don't want to--I 
guess I am speaking for him, so to speak, but he looked at the 
service Chiefs and those of us that were representing our 
service Chief, and the thrust of his argument--not argument--
the thrust of his statement was not how much or how little this 
list can be.
    Quite honestly, it was just the opposite. His intentions 
were honorable. He looked at all of us and said: As you submit 
these lists, is there--my question for you, as service Chiefs, 
is there anything that is on this unfunded priority list that 
you did not know about when you submitted the program objective 
memorandum (POM) 10 bill, when we submitted the budget.
    And if you remember, sir, we began building that budget 
early last summer and really submitted the final up to the 
Office of the Secretary of Defense (OSD) probably around 
October or November timeframe. So his question was: What has 
happened, or is there anything that has happened, that now 
makes these things on the unfunded priority list--in our case 
$188.3--more exigent than those things that you submitted in 
the fiscal year 2010?
    And his thrust was, if there are then maybe we should go 
back and modify the 2010 budget. In other words, let us pay for 
those things. Let us be good stewards of those things.
    So to be honest with you, sir, we submitted our list of 
$188.3 million and didn't even bat an eye, but I came away from 
that meeting thinking, ``Boy, his intentions were absolutely 
honorable on this, and he wants to make sure that we get what 
we need.''
    Mr. Forbes. And General, I just want to close by--want to 
apologize unto the subcommittee for taking this much time, but 
I think this is one of the most important things we will do 
this year in asking these questions.
    Second, I want you to know, I do not question anybody's 
intent or their honor in doing any of this. And we all know 
that at some point in time you do have to balance the resources 
you have against the risks that you have. The only question I 
would say to all four of you, and I open this up for you to 
submit it to the record: We are trusting you. We trust your 
integrity that you are going to tell us what the risks are that 
we are facing, because ultimately this committee doesn't 
challenge at all anybody's integrity or their honor. But we 
need to know what the risks are. And when we see budgets coming 
over to us we are assuming you are telling us, ``This is the 
risk and we are meeting the risk.''
    If you tell us the risk is greater, and you need more 
resources, and we don't get it, that is on our shoulders. But 
if you come over here and tell us, ``This is all we need,'' and 
we supply that, and we find out later on that that was driven 
by budgets and not by the actual risk assessment, then that is 
something we all have to carry on our shoulders. And that is 
why we are giving you this opportunity to put that in the 
record. So if we come back down here a year from now or 
whenever, we can say we at least knew the risk, and we made the 
decision not to fund this risk adequately.
    But thank you all for, again, your service and being 
patient with me in asking questions.
    Mr. Chairman, I yield back.
    Mr. Ortiz. Thank you.
    The chair recognizes the gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And gentlemen, thanks for being here this morning. We 
welcome you and we thank you for your service, and certainly 
know that you have been wrestling with some very tough issues 
with the limitation on budget.
    General Chiarelli, I wanted to start with you because you 
and I have talked in the past about the stress on the troops 
and also their families, and the hope that we have that we are 
seeing the troop levels in Iraq hopefully start coming down. 
But at the same time, we know we have got the challenge in 
Afghanistan, so we are potentially, if things go according to 
plan, are going to trade deployments in Iraq for deployments in 
Afghanistan.
    There have been a number of incidents where--one in my 
district at Fort Bliss and one recently in Iraq--where the 
stress has led to unfortunate incidents. My concern, and I 
would ask you to address this, is in the face of these 
deployments and continuing deployments, I think perhaps for the 
next decade, and the dwell time limitations on troops coming 
out of combat theater, how do we justify going from 48 to 45 
Army brigade combat teams?
    And then the second part is, what are we doing to help 
with--because I know this is a personal interest to you--to 
help with military families coping with the stress of constant 
deployments? In my visits to our soldiers there in Fort Bliss, 
we have got, on a pretty common, regular basis, we have got 
troops going back for a fifth deployment. So that is just, from 
my perspective, an indicator that we don't have enough troops, 
that the operational tempo is too high, and yet we are going 
from 48 to 45 combat brigades.
    General Chiarelli. Sir, as you well know, we have the 
soldiers on board to build those brigades today. I think that 
is important to understand. We have 549,000 soldiers in the 
active component force. And in fact, we have got to take it 
down to 547,400 to get within our end strength.
    The three brigades that were going to be built were going 
to be built in fiscal year 2011. That is after we should see 
savings from the Iraq drawdown. And those soldiers that are on 
board today, at 549,000, that delta of 10,300 soldiers are 
being used to thicken the formations that are going out today. 
I think the Secretary explained that in his decision to go from 
48 to 45, and I have got to tell you, to me that makes sense.
    He also indicated that if demand does not go down and we 
get further into this he would reconsider the decision to go 
from 48 to 45. And that is something we are going to look very, 
very hard at, because as you well know, that is my biggest 
concern. If you want me to tell you where I think we are taking 
risks, that is what concerns me.
    And that leads into your next question, and that is on 
families and stress. I recently went on a trip to take a look 
at seven installations in eight days, and I went out to look at 
suicide prevention programs, since the Secretary of the Army 
has put me in charge of the Army's efforts to try to lower the 
number of suicides.
    When I was at my fourth installation, I came to the 
realization that this isn't about suicide prevention programs; 
this is about helping soldiers and families--and I really 
emphasize families--improve their mental wellness, their mental 
health. And this has to be a multidisciplinary program.
    We tend to concentrate on mental health care providers, and 
we need more. If you were to ask me how many more we need, I 
could not tell you. I can't tell you because I am trying to 
determine, after seven years of war with the stress that this 
force has been put on, how many do you really know? What I know 
now is I don't have enough.
    But this is bigger than mental health care workers. It is 
supporting our chaplain's programs, his strong bonds programs, 
where he takes both deploying and redeploying soldiers' 
families on a marriage retreat where they talk about some of 
the issues that they have had or are going to have going into 
that deployment or coming out of that deployment.
    It is substance abuse counselors. We have got an issue that 
we have to work. I need more substance abuse counselors, and we 
are taking action now to hire more substance abuse counselors.
    Again, it is hard for me to tell how many more I need. I 
just know the demand is not being met today.
    So I am looking at this thing holistically, but the number 
one thing that I need to get this under control is to increase 
dwell. I have got to increase dwell. I know that when that 
happens many of the issues that we are seeing today will--not 
being eliminated, will decrease.
    I would just leave you with one quick story. I was briefed 
yesterday on the number of nondeployables that are in upcoming 
brigades that are going out to the United States Army. And I 
saw those nondeployable numbers up in the vicinity--very, very 
high, except for one single brigade, which was very, very low--
less than 4 percent of his formation was nondeployable as 
compared to 12 to 14 percent in some of these other brigades.
    And I asked a question: What is this guy doing right that 
the others aren't? And what I found out is that he is on the 
Global Response Force, has been in the country for 2-1/2 years, 
has got the longest amount of dwell time of any unit in the 
United States Army, and his nondeployable rate is down under 4 
percent. I think that is illustrative of the fact that time at 
home is what we need so that both soldiers and families can 
repair themselves.
    Mr. Reyes. Thank you, General.
    Mr. Chairman, as you know, we have talked to Chairman 
Skelton about the issues that the General mentions in terms of 
doing everything we can to support the family structure as well 
as the soldier. This may be an issue that we might want to have 
an additional hearing on. Thank you.
    Mr. Ortiz. And we know that we are facing a lot of 
decisions that we have to make soon, and I agree with Chairman 
Reyes. We might be able to maybe have a separate hearing to 
dwell on this specific issue. But with what you have got, we 
appreciate what you have done. We really have.
    And now I yield to my good friend, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And I want to thank all of you for being here and for your 
service to our country.
    General Chiarelli, in looking at the baseline budget for 
2010 and the supplemental, I notice there is an $87.4 billion 
has been requested, and that is just a 0.7 percent increase 
over fiscal year 2009, less than 1 percent. Can you talk a 
little bit about how this flat-lining of operation and 
maintenance funding will affect the active Army?
    It seems inconsistent with the degradation that I know 
General Amos talked about in his opening comments, and I am 
sure you have got that in your equipment as a result of this 
seven years in two theaters of war. It seems like that is an 
inconsistent number with the growing amount of maintenance that 
we are having on our equipment. Could you talk to me about how 
that is going to affect your ability to maintain your 
equipment?
    General Chiarelli. Well, as you well know, sir, our reset 
amount--what we are taking to reset the force--which is a 
critical piece of what we are doing with maintenance of 
equipment coming out of the force right now, is all in our OCO. 
And that is----
    Mr. Rogers. It is on what? Is your microphone on? I can't 
hear you very well.
    General Chiarelli. I am sorry. It is on.
    Mr. Rogers. Okay.
    General Chiarelli. It is in the OCO--the O-C-O--overseas 
contingency operations portion of the budget.
    Mr. Rogers. Yes, sir.
    General Chiarelli. That is a total of $11 billion. That has 
gone down. It was a high in fiscal year 2007 of $16.4 billion. 
It has gone down to $11 billion.
    But we see that as significant--as the amount of money that 
we need to reset the forces that are coming back, that we know 
are coming back in the fiscal year 2010 period. I would expect 
that portion of the budget to go up in fiscal year 2011, and I 
would because we are going to be--if we, in fact, have the 
forces flow out of Iraq like we are planning on having them 
flow out, that reset money will probably go up because of those 
forces returning to the United States.
    I will remind you that the Army has been consistent in its 
position as saying that if hostilities were to end today, we 
have still got a two-year period that we feel that we are going 
to need to have to reset the force. That will be bills for two 
additional years in order to reset the force.
    Mr. Rogers. Great. Thank you, sir.
    General Fraser, the KC-X program will replace the KC-135s, 
hopefully in my lifetime--not been looking good so far. They 
are already an average of 47 years old. Given the delays in the 
KC-X and the fact that the KC-135 will remain in service for 
maybe 30 more years, keeping these airplanes available to 
support combat operations around the world is obviously an 
important objective.
    Currently, the KC-135 program depot maintenance is 
performed organically as well as by outside contractors. I 
understand that in fiscal year 2010 the Air Force is planning 
to increase the number of aircraft inducted into programmed 
depot maintenance (PDM) organically from 48 to 54 and reduce 
those done by outside contractors from 29 to 23. Can you talk a 
little bit about how you are going to be able to handle that 
organic increase in work?
    General Fraser. Thank you, sir. I will get back to you on 
the specifics of that. I know there are some adjustments that 
are being made within the schedule as we take a look to ensure 
that those aircraft meet the depot schedule, and so I would 
like to provide that detail schedule to you and what that 
actually looks like.
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Rogers. Great.
    General Fraser. Now, I know there are some reductions that 
we had planned on with respect to the depot maintenance, and 
that is specifically related to the planned retirement and 
approved retirement of some of the KC-135Es. They are not 
necessary to go into the depot, so we are able to take that 
out, so that is one reason that you see some of the reduction, 
but the actual specifics of that, I would like to provide that 
to you.
    Mr. Rogers. I would appreciate that.
    And then just one statement for the record, Mr. Chairman. I 
appreciate all of you and, as Mr. Forbes said, respect your 
judgment. We do count on you to give us your unvarnished 
military opinion when we ask for it.
    Unfortunately, in the last several terms that I have been 
here, we saw the Secretary of Defense Rumsfeld very heavy-
handed with general officers, and they were controlling their 
comments to this committee, to the Secretary of Defense and 
his--in deference to him, with concerns over career. And this 
committee and the full committee, in my opinion--I was a part 
of it--we didn't do a good enough job of getting on top of that 
sooner.
    I fear we are starting to see some of that from the current 
Secretary of Defense. I hope that is not the case, and if any 
of you don't want to give an unvarnished opinion when it is 
asked here, I hope you will talk to us privately and let us 
know what you need. Because as Randy has said, we can't fix it 
if we don't know about it, and you know a whole lot more than 
we do.
    So if it is in a private meeting or if it is somewhere 
else, let us know if you are getting pressure to make cuts or 
do things separate and apart from what you really believe your 
military opinion is. I know that oftentimes when you come 
before us you have got to click your heels and salute to what 
your Chief told you to say, but we want to hear what you have 
got to say, because we do respect you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Marshall.
    Mr. Marshall. Thank you, Chairman.
    Thank you, gentlemen, for what you do and for what all of 
those you lead do on behalf of our country.
    General Chiarelli, you know, to sort of add to your list of 
reasons why the reduction in BCTs might be reconsidered is the 
fact that a number of different communities have relied upon 
what in essence is a promise from DOD to prepare for receiving 
those brigade combat teams (BCTs). Creating schools, building 
housing, you know, all of the other attendant things that are 
necessary in order to adequately take care of an extra 5,000 
people and their families is a significant investment for the 
communities that have been asked to do that.
    Fort Stewart, specifically, I think was the community that 
was going to receive the next BCT, and assuming it does, that 
is fine, but if it doesn't, so far to date the investment is in 
excess of $450 million. That may not be a lot of money from the 
Department of Defense's perspective. It is a huge sum of money 
for those communities and governments, et cetera, down in the 
Fort Stewart area.
    And it is a matter of just sort of abiding by your word. I 
mean, if our word is not good, then what communities in the 
future are going to rely upon our promise that this is coming, 
would you please prepare? They just won't prepare, and then we 
will show up and families won't be served, et cetera. So I just 
add that. You know, everybody knows we enlist a soldier and 
then we reenlist the families.
    General Fraser, Secretary Young, not too long ago, 
suggested that modernization not be taken into account as core 
work for depot maintenance purposes, and that caused a flurry 
of consternation here because as we have gone through the 
process year after year after year of considering that 
question, you know, adjusting to 50-50, that sort of thing, we 
have always contemplated that modernization was part of the 
mix. What is Air Force's current view?
    General Fraser. Sir, modernization is a part of that, and 
we have got an ongoing stake for new weapons systems that we 
are bringing online, and we are actually--that will wind up 
within the depots, so that is ongoing.
    Mr. Marshall. Because of this little brush with the 
Secretary's suggestion of perhaps it is not, we might put 
clarifying language in this year's bill. Be happy to work with 
you on that clarifying language.
    General Fraser. Yes, sir. We would like to work with you.
    Mr. Marshall. Joint Cargo Aircraft (JCA)--Secretary has 
proposed--well actually, by agreement between the two Chiefs, 
looks like JCA will be transferred to Air Force. I have never 
been troubled at all by the notion that Air Force would manage 
acquisition, sustainment, modernization, maintenance.
    I suspect thus far the understanding between the contractor 
and the Army, since the Army has sort of led the way in 
acquisition thus far, hadn't really taken into account the 
kinds of concerns that Air Force would have if Air Force is 
going to be doing long-term maintenance, sustainment, 
modernization, you know, data rights acquisition, and then some 
discussion concerning how are we going to transition this stuff 
from contractor control to--well, actually it should right away 
be Air Force control, but then contractor maintenance, 
sustainment, modernization to depot sustainment, modernization.
    I am convinced we are going to acquire more of these 
things. We are not stopping at 38. The Institute for Defense 
Analyses (IDA) analysis that was published on March 13th says 
that for low-intensity conflicts like we are engaged in at the 
moment and for the foreseeable future seem to be the kind of 
conflicts we are going to be engaged in are the most cost 
effective platform--platform mix includes 98 of these JCAs.
    And so it seems to me that in--as we consider further sales 
as we prepare to--buys, pardon me--as we prepare for more buys, 
Air Force really needs to focus on this long-term issue and the 
deal with the contractor can be modified. A question is, what 
sort of coordination has gone on between Air Force and Army 
right now on JCA and the needs of the Army?
    Where the Caribou is concerned, something similar was done 
during the Vietnam era, and it didn't work out very well. The 
Air Force really wasn't able to meet the needs of the Army as 
far as the actual utilization of the platform Caribou, in this 
instance, was concerned, and I would be pleased to hear from 
General Fraser and General Chiarelli about what sort of things 
are going on as between the two branches to discuss--in trying 
to figure out how we are going to actually meet the Army needs.
    General Fraser. Sir, thank you. We are committed to this 
mission of direct support for the Army. We have a team that is 
put together already that is taking a look at this to ensure 
that the program of record that we have on track right now 
stays on track, working with the program office to include the 
development, the testing, and everything else that is going to 
go with that. So we are integrating our people in with the Army 
and with the System Program Office (SPO) right now.
    The other thing that we are doing is focused with the Air 
National Guard and the Army National Guard, so General McKinley 
is a part of that. In fact, General Chiarelli, myself, and 
General McKinley have held several meetings already as we 
provide direction and guidance to that team of individuals that 
is taking a look at this entire program. And so we have charged 
them by the end of the month to take a look at this, to 
periodically report back, seek guidance.
    There was recently a meeting that was held at our mobility 
command. General Light, out there, was the host of that 
meeting, and they had some very good discussions with respect 
to the program and the mission and how this is going to be 
accomplished.
    The other thing that is ongoing is discussions downrange 
and what this would look like as it actually gets employed. So 
there is a coordination group that is going on right now to 
ensure that this stays on track.
    Mr. Marshall. Are you heading in the direction of putting 
in writing what the Army's expectations are of Air Force to 
bring to meet those expectations? Army actually is going to 
develop the list, and hopefully it will be a very thorough 
list, and guidance can be taken from the experience with the 
Caribou, trying to figure out, well, where would it break down 
in the past?
    General Chiarelli, I am sorry to----
    General Chiarelli. That is, in fact, exactly what General 
Fraser and I are doing. We just can't talk direct support 
because direct support is absolutely key and critical for us, 
and the Air Force is fully signed up for direct support. We are 
down, now, into the weeds of, you know, when the Army defines 
direct support for this particular aircraft, what exactly does 
that mean?
    And that, to us, is key, and I know it is to General 
Fraser, and the Air Force has said all along that they will 
provide the Army this aircraft and the capabilities of this 
aircraft in a direct support role. We are ensuring that we go 
into that with our eyes open on exactly what that means to both 
of us.
    Mr. Marshall. Thank you, Mr. Chairman, for your indulgence.
    Mr. Ortiz. The chair recognizes Ms. Fallin, from Oklahoma.
    Go ahead.
    Ms. Fallin. Thank you, Mr. Chairman.
    And I just want to say how much I appreciate Ranking Member 
Forbes' comments about trusting you with the decisions and what 
we need to be doing with our military operations and 
maintenance, and we appreciate your service to our Nation. I 
have a couple of questions.
    One deals with the memo that we have about the 2010 Air 
Force operation and maintenance baseline budget, and in it we 
reduce the organic KC-135 aircraft program depot maintenance by 
$68.1 million, and it will result in 10 fewer depot inductions. 
And I have a very specific question about how will this 
programming change affect the KC-135 depot at Tinker Air Force 
Base in Oklahoma?
    General Fraser. Thank you, madam, I appreciate that. I will 
provide the detailed schedule, as I mentioned before, with 
respect to that. I know that that reduction was as a result of 
the KC-135E and the not needing to input those aircraft within 
the depot maintenance because they are approved and scheduled 
for retirement.
    We are still on track to ensure that the KC-135Rs continue 
to meet their 5-year depot maintenance plan, and we are 
definitely committed to ensuring the 50-50 split, as is 
mandated too. So we will get you the detailed schedule.
    [The information referred to can be found in the Appendix 
on page 128.]
    Ms. Fallin. Okay. Thank you very much.
    And I have another question for General Chiarelli. I would 
like to ask you a couple of questions about the artillery 
capacities of the Army, and I know that the Army and Congress 
are both very committed to developing--have been committed, I 
should say, in the past, to developing a Non-Line-of-Sight 
(NLOS) cannon--NLOS cannon--and as part of the future combat 
systems (FCS), and there were significant developments that 
were made in that. But now we are in a restructuring of the 
FCS, and I want to make sure that the Army and our soldiers 
have the very best capacity and advantage on the battlefield.
    So my question is, with the current Paladin system 
approaching nearly 50 years of age, can you tell us how the 
Army will continue to modernize the Army's artillery capacity, 
and is the Army's commitment to the Paladin more critical, 
given the changes in the FCS system programming?
    General Chiarelli. Well, we are totally committed to the 
Paladin 10 program, which will go a long ways in extending the 
life of the Paladin. In addition, I know you know that we are 
working and moving out very, very sharply what we are calling 
ground combat vehicle and looking to be able to deliver 
something in five to seven years.
    Training and Doctrine Command (TRADOC) is working through, 
at this time, whether that will be a single vehicle or a family 
of vehicles, but I can assure you that everyone in the Army is 
committed toward some type of capability to provide indirect 
fires. We think the Paladin 10 program, in the interim, will do 
an excellent job of operating the Paladin.
    Ms. Fallin. Well, in light of the Army working toward 
modernizing the artillery capacities, how will you use those 
developments that have already been accomplished through the 
work outside the production of the NLOS cannon?
    General Chiarelli. Well, that is absolutely critical to us. 
There is a lot to be gained from the Manned Ground Vehicle 
(MGV) program, not just the NLOS cannon but also the entire MGV 
program. And our plan is to harvest those technologies, those 
things that we are able to use and apply if they apply to this 
new ground combat vehicle.
    So we see this as an investment that is not wasted, but one 
that will allow us to look at those technologies that have 
matured and consider them for incorporation into our new ground 
combat vehicles.
    Ms. Fallin. And the other thing, Mr. Chairman, I just want 
to mention that I know there has been a tremendous amount of 
investment put into these technologies, and now the program is 
changing, so I want to make sure that the investments that we 
spent are going to be used wisely in whatever type of systems 
that we put forth in the future with that technology.
    General Chiarelli. We are committed to that.
    Ms. Fallin. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Heinrich?
    Mr. Heinrich. Thank you, Mr. Chairman.
    I would certainly want to thank the four of you for joining 
us here today. I also want to commend the work of our service 
members for all that they do. I know we are asking a great deal 
of them at the current time, and I want to direct my question 
today to General Fraser.
    General it was good to hear you in Albuquerque a couple of 
weeks ago. I very much enjoyed your speech and I know the 
audience enjoyed your interest in our city. In the last two 
hearings with Secretary Gates and Secretary Donnelly I made no 
secret of my concerns for the proposed accelerated retirements 
of fighter aircraft. And with the Quadrennial Defense Review 
underway, I believe that any decision to shut down entire 
fighter wings is premature.
    But what is incredibly troubling to me is that the Combat 
Air Force Restructuring Report that was released on May 15 
lists 23 bases across the country, all having future missions 
declared with the exception of one, that being the 150th at 
Kirtland Air Force Base, which has been selected to lose its 
entire flying force without a follow-up mission being 
determined.
    General Fraser, yesterday I asked about the specific 
criteria that were used in determining which wings were 
selected for retirement. General Schwartz said that a business 
case analysis was used. To me it is still a little bit unclear 
as to what the specific criteria of that analysis were, and I 
was hoping that you might be able to elaborate on the criteria 
that were used to select these wings for retirement, 
specifically the 150th Fighter Wing in Kirtland.
    General Fraser. Thank you, sir. We see the opportunities 
there with other activities that go on in the Kirtland area as 
opportunities for a total force initiative. So as we were 
looking across the entire spectrum of our combat air forces and 
trying to find that right balance and where opportunities 
presented themselves for the total force initiatives, that was 
one of the areas that we felt like was certainly prime to 
participate in one of those total force initiatives, with, say, 
the 150th.
    In fact, we are in negotiations and discussions with them 
about potential opportunities. We have got special forces 
training that go on right there, as you know, sir, at Kirtland, 
which is something that is a particular area of great interest 
to us as we continue to increase that capacity and capability 
to provide it to the joint fight.
    There are other opportunities that we have also talked 
about with other emerging weapons systems as they come online, 
because as we provide other capabilities, such as intelligent 
surveillance and reconnaissance to today's fight, we need other 
units that are willing to participate and want to participate 
in those total force initiatives. And so we have had great 
opportunities in a number of the other states, too, where they 
have taken on these new missions.
    And so we felt like that that was one area, as we 
modernized and upgraded across the Combat Air Forces (CAF) and 
took this particular step with the CAF Reductions (Redux) to 
look at those units where there were other opportunities, and 
we felt like that that was one of those units that was 
certainly viable because there are needs out there for our Air 
Force, which would add great capability to the joint fight.
    Mr. Heinrich. I hope you understand my trepidation 
regarding a report where that mission has not yet been 
designated or determined for the 150th. Would you be willing to 
comment a little bit, once again, on the criteria that were 
used in terms of figuring out who was going to be retired where 
and what, and specifically whether or not the--some of the 
things were taken into account, such as, I know 10 of the 21 
aircraft in the 150th had already just recently gone through 
the upgrades that extend their service life for another 8,000 
hours on top of their remaining service--or, I am sorry, 2,000 
hours on top of their remaining service life.
    General Fraser. Sir, we would be happy to come over and 
hold some discussions, and get into further details. As we 
looked at all the different units and as we went across that, 
we would love to come over and spend some time and talk to you 
about that.
    Mr. Heinrich. Are you able to comment at all on what the 
cost difference is between an active duty F-16 wing and a Guard 
unit? I know I have seen some figures thrown around that 
suggest that Air National Guard units maintain combat ready 
status at approximately a third the cost of an equivalent 
active duty force. Is that an accurate statement, or do you 
know what the ratio there is?
    General Fraser. Sir, I will get the specifics, but I too 
have seen these same figures.
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Heinrich. Okay.
    Thank you very much.
    Mr. Ortiz. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much.
    These questions are for Admiral Walsh, please, and General 
Fraser. I have read reports that the Navy and the Air Force 
have cut back on the flying hours for pilots to train, which 
could produce a problem of proficiency and leave an impact on 
readiness.
    In fact, according to the Navy Times article entitled, ``P3 
Mishap, Two Pilots Short on Flight Hours,'' the Navy Judge 
Advocate General (JAG) manual investigation of the mishaps 
found that lack of flying hours was a contributing factor. Two 
of the pilots failed to meet the proficiency minimums and serve 
the required 10 hours per month. One pilot had 3.8 hours and 
the other one had 3.3 hours--less than a third of the 
requirement.
    Some of the reduction can be replaced by flight simulators, 
but surely not all. How concerned are you both about the impact 
of the flying hour reductions on readiness, and what steps have 
you taken to deal with this problem, if you see it as one?
    Admiral Walsh. I can start. I am not familiar with the JAG 
manual investigation on the P3. I suspect this is a 
investigation of a mishap that took place in Afghanistan a 
while ago and involved proficiency issues associated with the 
crew. And the question that would come up right to mind is 
whether or not we mandated that minimum in terms of flying hour 
proficiency, or was that something that was determined by local 
commanders as adequate enough, and I don't have the answer to 
that.
    But in terms of resourcing fiscal year 2010 and how we look 
at the flight hour program, we continue to work toward a T-
rating at 2.5, which has proven adequate in combat. In fact, we 
are over-executing our flying hour program in Central Command 
area responsibility today, and it is forcing some mitigations 
in fiscal year 2009 that affect the rest of the fleet, in terms 
of operating costs and steps that we are having to take in the 
execution.
    But the plan for fiscal year 2010 is to continue to fund 
this. This is an area that we don't take for granted, that we 
continue to self-assess, and we do have statistical data that 
will prove out that when we have less than a certain minimum 
flight hours per month we will, in fact, see a causal 
relationship to accidents. That is something that, at the 
headquarters level, we are very much aware of and we are trying 
to avoid with resources. But I can dig further and find out, in 
fact, whether or not those were local decisions or decisions 
that they inherited from us.
    Ms. Shea-Porter. Okay. And I also would like to say that--
well, we will let that go and I will let General Fraser answer, 
and then I will make a comment.
    General Fraser. Yes, ma'am. Our flying hour program for 
2010 is fully funded. What you are saying with respect to the 
reductions that are in there are directly related to a 
restructure and some changes with respect to our undergraduate 
pilot training program and the syllabus changes that have been 
made there.
    The other place that we have managed to have some savings 
within the flying hour program, and therefore a reduction this 
time that you are specifically talking about, is directly 
associated with the CAF Redux. By removing 250 of the older 
aircraft as we modernize and change that force structure there, 
we get some savings.
    We ensure that the experience and inexperience level of our 
aviators continues to stay up, and assure that that is fully 
funded. The other thing that we have done with the flying hour 
program is, we have ensured that we have brought the air 
sovereignty mission into the baseline.
    This is a change. We see it as an enduring mission, and so 
that has also negated any further reductions with respect to 
that. So as we continue to do that to support the combatant 
commander of the air sovereignty mission, we ensure that that 
was also brought in there. So that is what you are seeing, as 
far as our changes go.
    Ms. Shea-Porter. Okay, thank you.
    And I was referencing the article in the Navy Times, and it 
was Sunday, March 1, 2009, if anybody wants to read this: ``PC 
Mishap, Two Pilots Short on Flight Hours.''
    General Fraser. Yes, ma'am. Thank you.
    Ms. Shea-Porter. All right. Thank you.
    And my other question has to do with whistleblowers. This 
is a big issue for me, and I want to thank the DOD Inspectors 
General for their efforts to protect whistleblowers, but I did 
want to talk about the hotline that they have been using.
    I understand that fewer than 2,000--to be exact, 1,956 
calls out of more than 13,000 resulted in any investigation, 
and I just wanted to ask, why such a low rate? Do you have 
enough resources? What steps are being taken to improve this so 
that whistleblowers who call will feel comfortable utilizing 
this service and knowing that there will be some kind of a 
response?
    General Fraser. I am going to have to take that one for the 
record and get back to you on that, ma'am.
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Shea-Porter. Okay, thank you. I mean, I really admire 
the work that they are doing. I know it is critical, and I 
appreciate the fact there is a hotline, but it is important to 
actually be able to follow up on the calls once they come in.
    So thank you, and I yield back.
    Mr. Ortiz. Thank you.
    You know, one of the things that I am very concerned with, 
that when we talk about dwelling, dwell time, equipment age, 
getting old, the losses that we have had on the equipment on 
the battlefield, I always worry about another conflict. And if 
there was to be another conflict, how are we going to be able 
to sustain those troops if we were to send--and I ask that 
question because I was in Korea, and when I asked the question 
of sustainment, they told me that it would only be a few days.
    And because of the prepositioning stock and a lot of issues 
that we have, how were we going to respond? I know we are 
involved in two conflicts now--two wars--but if there was to be 
another conflict, how are we going to be able to sustain those 
troops.
    I mean, can we manage it somehow, to be able to sustain in 
case we have to deploy troops to another conflict someplace 
else? I mean, we have got our hands full, but this always 
worries me. Any one of you who would like--respond to that 
question.
    Admiral Walsh. This is precisely what we are concerned 
about, why we present ourselves as a full-spectrum force, 
because in large measure in our history we have been caught by 
surprise. And so when we are forward-deployed and really, in 
many respects, alone operating at sea, we have to take a very 
suspect approach, in terms of how we approach our concept of 
operations so that as we approach traffic in the area, we have 
no idea whether these are vessels in distress, legitimate 
traffic, or another USS Cole that is about to happen.
    So our experience has taught us, and that is one of the 
reasons why the full-spectrum capability has been redlined from 
my service for many years, and why we argued before the Supreme 
Court how important it was to be able to have that full-
spectrum training to include undersea warfare.
    The committee's support for our readiness and our ranges is 
critically important to us, and one of the reviews that is 
underway right now is, how valuable and how appropriate is 
simulation training. Because it cannot replace the hands-on 
execution and experience, whether it is in the flight hour 
program or the actual execution of undersea warfare operations.
    That cannot be simulated to the point that we can do away 
with training rangers, but continued support in that area is 
very valuable to us, and that is exactly the reason why we 
approach our business the way we do and why we have described 
redlines in training the way we have. Thank you, sir.
    General Chiarelli. I would add that our operational ready 
rates, quite frankly, astound me every time I look at them, 
both in theater and back here. I think nowhere do you see it 
more than in Army aviation and the ability of our low 
decisions, through use of some contract maintenance for sure, 
that provide us unparalleled operational readiness rates not 
only across our aircraft, but even the Mine Resistant Ambush 
Protected vehicles (MRAPs), where we took--in our attempt to 
try to get them to the field as early as we did and as quickly 
as we did, we took some risks with the sustainment packages. 
But both in Iraq and Afghanistan we have seen those numbers 
extremely high--over 90 percent.
    There is no doubt that what we call the enablers--the 
logisticians that are conducting this work brilliantly--are 
stressed. They are a big portion of our force's stress today. 
However, their ability to support us, as they have in two 
theaters, I think is unparalleled in modern warfare. And I 
suspect there is still capability left to do that, should 
another contingency require us to do so, as long as it was not 
too large.
    Mr. Ortiz. Anybody else?
    General Amos. Chairman, right now, with 30,000 Marines tied 
up and the balance shifting, now, from the left foot in Iraq to 
the right foot in Afghanistan, there is no question that, as I 
said in my opening statement, that the--not only is the 
readiness forward-deployed very high, but the readiness at home 
station has been the bill-payer for that. And that gets to the 
crux of your question of--if we assume that we are going to be 
tied up in the theater that we are in two fronts, what else 
could we do around the world?
    And the answer, from the Marine Corps' perspective is, we 
would--it would be difficult. We would cobble together the 
equipment that we have back at home station. We would empty out 
our maritime preposition squadrons.
    As you and I talked yesterday, we are running--we have got 
three squadron's worth of ships, each one roughly five ships, 
and some of those are sitting at about 100 percent, some are 
sitting at about 80 percent. We have got caves in Norway that 
are just a little over 50 percent of that prepositioned 
equipment. We would empty that out to go fight someplace else 
in the world, and we would cobble together the Marines just as 
we did in Korea when we brought six Marines together from 
almost a cadre status and flowed them in----
    So it would be difficult; it would be challenging. It can 
be done. The sustainment piece, though, is--it would be the 
hard part. It would fall on the shoulders of industry and this 
Congress to help put that together for us to be able to sustain 
the fight someplace else in the world. But I don't think there 
is any question it would end up with some give and take on both 
theaters.
    Mr. Ortiz. General Fraser.
    General Fraser. Sir, I would echo a number of those 
remarks, too, in that in order to maintain the full spectrum, 
it takes time to come back and then get those individuals who 
have been deployed in theater back up to their full-spectrum 
capability. So it takes additional training, additional time to 
reset themselves, because we have seen, as time has gone on, 
that our deployment rates have gone up while yet the time has 
also gone up that the individuals are deployed.
    Back in 2004, 120-day or less deployments--we were only in 
the 12 to 14 percent of the force. Now we are upwards of 54 
percent of our deployers are over 120 days, and we have even 
larger numbers that are picking up the 365s. So naturally, that 
adds stress back to those home units to ensure that they 
maintain the capabilities should something else arise someplace 
else.
    The other thing that we see that we are able to do is 
continue to deploy in other areas. While there is nearly 40,000 
airmen that are deployed--that may be deployed forward, but yet 
we have over 200,000 that are engaged in the day-to-day fight
    Because of the way that we are able to do business back 
here with our intelligence surveillance and reconnaissance 
assets for the PED piece for the processing, exploitation, and 
dissemination of the intelligence, a lot of people are able to 
do that back here. And so we have got a lot of people that are 
deployed in garrison--in place--and actually performing the 
mission today and providing a valuable contribution. So it is 
all of that that is stressed out there that we need to take a 
look at.
    We also have several specialty codes that are stressed. The 
leveling off of the manpower at 330,000--332,000--is going to 
help us. So we have focused that additional manpower into, yes, 
some of those stressed career fields, but into those added 
capabilities that we continue to bring on to provide for 
today's fight.
    We are still doing other deployments in the Pacific. Today 
we have F-22s that are deployed at Anderson, and in Guam, and 
we are going to do another deployment to Kadena here, so there 
are other weapons systems that are still picking up and other 
areas of the world that continue to be able to deter, dissuade, 
and assure our allies and friends that we will be there, but it 
will be stressful.
    Mr. Ortiz. When I came to the Congress back in the 1980's, 
I can remember the reduction of the forces, and I can remember 
young men and women calling that had been in the military 12, 
14 years, but they were being forced out because we had to 
reduce the force. And I guess when I came here we had Army--
something like 900,000 troops. It was reduced drastically. Not 
only the Army, but all branches of the military.
    And I hope we can learn from the lessons that have stressed 
our armed forces in the past. And now, of course, recruitment 
is doing fine at this moment, but we have lost sergeants, we 
have lost a lot of key personnel, and I know that all of you 
are doing your best and you are trying hard, otherwise you 
wouldn't be where you are at, and your loyalty and your 
dedication to our country. We appreciate that, and when we 
say--Mr. Forbes and I, and members of the committee--we really 
want to help, and we do not mean to harass anybody or to point 
fingers at anybody; we just want to know so that we can be in a 
position to help you.
    Mr. Forbes.
    Mr. Forbes. Chairman, just one question.
    First of all, General, thank you for your comment about 
logistics. I think really that probably when all the stories 
are ultimately written, they are the true unsung heroes of 
everything we have seen, and what they have done has been just 
simply fantastic, and we owe them a great deal in all four 
areas.
    But there was an article on May 14th in the USA Today that 
highlighted the number of soldiers in the Army--some 30,000 to 
35,000--who are not available for deployment because they are 
recovering from wounds or injuries or because they are 
supporting the Wounded Warrior program. And I also understand 
from the data provided by the committee--to the committee by 
the Army--that up to an additional 50,000 military personnel in 
the active Army, Army Guard, and Army Reserve may be 
nondeployable because they have permanent profiles of three and 
four as a result of medical or other conditions.
    According to what the Army provided us, the number of 
people with these permanent P3 and P4 profiles in the active 
Army was 19,300, and the Army Guard 20,770, and in the Army 
Reserve 11,150. My question to you is, what effect are these 
large number of nondeployable personnel having on the Army's 
ability to fully man deploying units? And none of us are 
advocating a decrease in the support for the Wounded Warrior 
program, but what is the Army doing to address the numbers of 
nondeployables in that program?
    And among the personnel with P3, P4 profiles, particularly 
what can Congress do to assist the Army in increasing the 
number of soldiers who are deployable? For example, would 
temporarily exempting the numbers of people in the warrior 
transition units from counting against Army end strength assist 
the Army to increase the number of deployable personnel?
    General Chiarelli. There is no doubt that this unavailable 
force creates a problem for us. That is a problem we are facing 
today. In the active component force I have in the vicinity 
of--I saw a report yesterday of 21,000 folks who are 
nondeployable. I have just over 9,100 who are in WTUs--warrior 
transition units--and the rest are nondeployables who reside in 
units.
    We are seeing an increase in how many soldiers we are 
having to assign to units before they deploy in order to get 
them out the door at the acceptable strength of over 90 
percent. We are seeing that number go up from 9 percent to over 
12 percent, and we are concerned because this is cumulative 
over time.
    We have seen an increase in the number of soldiers who have 
mental health profiles. There is no surprise, I don't think, 
for anybody that that would be the case. And when you don't 
have the required dwell time back home to allow folks to heal 
from muscular-skeletal issues that they have, humping a 
rucksack at 10,000 to 12,000 feet in Afghanistan, you will see 
those numbers grow, and we are seeing those numbers grow.
    What it requires us to do is it requires us to take units 
down to a lower percentage than we would like to when they go 
through reset and build them up over time. But the problem you 
have there is that we--as we get ready for our capstone 
exercise in the trained and ready portion of that train-up to 
go, many times we don't have upwards of 70 to 80 percent of the 
unit available for that training exercise at that particular 
time.
    So it is creating some great challenges for us. But at the 
same time, I can tell you, when those forces got into country 
they are trained and ready and the best fighting force that we 
have ever had.
    Mr. Forbes. And you all do a wonderful job in dealing with 
the resources you have, but if there is anything you can see 
that we can do to assist you with that concern, please let us 
know, because we understand it is a difficulty.
    General Chiarelli. Appreciate that.
    Mr. Forbes. Mr. Chairman, I just thank our witnesses and 
yield back.
    Mr. Ortiz. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    I would like to return to the C-27 and the coordination 
between Army and Air Force. I was in Afghanistan a year and a 
half ago, and from my perspective, fortunately, Army couldn't 
get me out of Chamkani, so I stayed there for about three days, 
and it wound up being a better trip as a result of that.
    The reason Army couldn't was because Army didn't have the 
air assets that it needed in order to deal with the tempo and 
also move some Congressmen. So I just said, ``I am last in line 
here. Can't have soldiers be last in line.''
    And so I wonder what the range of possible options might be 
with regard to the coordination between Air Force and Army. 
General Fraser, for example, is it conceivable that you could 
wind up with Air Force simply providing the platform to the 
Army and everything else is relatively the same from the Army's 
perspective--Army warrant officers, Army chain of command, Army 
complete control--although Army would not be saying, ``Here is 
how we are going to be maintaining this, sustaining it, et 
cetera.''
    That would be one extreme, and I suppose the other extreme, 
General Chiarelli, would be that Air Force is providing 
absolutely everything and it is totally in control and Army has 
to actually go through Air Force channels in order to access 
the asset hour by hour, day by day. And then somehow there is 
something that is in between that maybe works. From Army's 
perspective, obviously, you would rather have the asset and 
then all your people--chain of command, et cetera--and I am not 
sure what Air Force would prefer to have.
    Are both of those extremes, at this point, possible, or are 
you much narrower than that?
    General Fraser. Sir, that is why we have a group that 
involves the Guard, the active duty Army, and active duty Air 
Force that are coordinating on this and working with the 
theater, working with everyone involved to ensure that we 
understand the concepts of employment. And as we mentioned 
earlier, that we will get that down in writing.
    We see this as--as we step into this this is not going to 
be all-in-all one day turned over, let us say, to the Air 
Force. There will be a transition period, and that is why we 
are working together with respect to the acquisition program to 
make sure that there is a smooth transition.
    So there is a number of items that are on the table. We 
have a task to do out to report back, and we will do so in the 
timeframe that is allotted to us. There is a number of things 
that are being talked about.
    Mr. Marshall. Well, with respect, sir, is the outer range 
that I described possible? Could this group that is this task 
force that is meeting--could this task force conclude that the 
best way to go about this is to simply give the asset to the 
Army and let Army National Guard, Army whoever, manage the 
asset?
    General Fraser. Sir, we are looking at this as, the mission 
has been given to the Air Force, and that we are going to pick 
up this mission. And that is how we are approaching this, and 
to ensure that we get this capability to the theater as fast as 
we can.
    Mr. Marshall. Would Army personnel migrate--the Army 
personnel, perhaps, who would otherwise have been accomplishing 
a mission--would they migrate to the Air Force somehow? Would 
Air Force take Army Warrant Officer pilots, for example, or 
will Air Force be providing its own pilots?
    General Fraser. Sir, I think here in the beginning what you 
are going to see is there is certainly a mix, and I would not 
discount any of that.
    Mr. Marshall. Okay.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you so much. This has been a very 
productive hearing that we have had, and our country and us, we 
appreciate your service. We are grateful for what you have 
done, putting you, yourself in harm's way and the sacrifices 
that not only you but that your families go through. So we are 
very appreciative.
    Hearing no other questions, this hearing stands adjourned. 
And again, thank you so much.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                              May 20, 2009
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 20, 2009

=======================================================================
      
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 20, 2009

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 20, 2009

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Admiral Walsh. The reduction in dollar value of the Navy's 
Fiscal Year 2009 (FY09) Unfunded Program List of $4.6 billion 
to the FY10 submission of $395 million is a recognition that a 
substantial amount of the national budget is tied up in debt, 
and that the Navy is taking a very disciplined approach about 
how to sustain itself.
    The idea that we can go forward in 2010 and still procure 
aircraft, ships, and submarines is critically important to the 
future of the Navy, and recognizes the Congress' commitment to 
the Navy.
    The effort now is to sustain the service life of those 
assets, particularly in aviation and shipboard maintenance. The 
Navy's unfunded submission will bring that level to 100 percent 
of requirement.
    If the CNO was given an extra dollar that is exactly where 
it would go. It would go into the maintenance accounts rather 
than for additional procurement. [See page 15.]
    General Chiarelli. There are many factors that led to the 
Army leadership's decision to forward $1 billion in unfunded 
requirements to Congress. They focused on Readiness and the 
programs where funding above the PB10 submission would provide 
the greatest impact to readiness for the operational and 
institutional force, including $200 million that carried over 
from the FY09 requirements list. Additionally, requirements 
change over time and the Army continues to refine and adjust 
its requirements as it goes through the budget cycle. [See page 
16.]
    General Amos. There was no difference between the FY10 
Unfunded Programs List that the Marine Corps submitted to the 
Secretary of Defense for review and the list the Marine Corps 
submitted to Congress. Our list was internally tailored to 
focus on warfighter equipment, continued modernization, and 
improved reset enablers to highlight the top priorities of our 
unfunded programs. [See page 17.]
                                ------                                


          RESPONSES TO QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    General Fraser. Answer 1a. The Air Force IG's at all levels 
of the department (i.e., installation, Numbered Air Force, 
MAJCOM, and HAF) are capable/available to assist Air Force 
personnel. Part of their duties is to receive complaints from 
Airmen. However, not all complaints are of reprisal. Complaints 
in any given year run the full gamut from pay issues to 
reprisal. The IG process calls for the IG to clarify (with the 
complainant) the problem and then analyze the complaint to 
determine the best way to resolve it. The Air Force IG has four 
ways to resolve complaints: ASSIST, REFER, INVESTIGATE and 
DISMISS.
    In many cases the best way to resolve the complaint is to 
assist the member to solve the problem for themselves (e.g., 
the IG will call the local finance office to help the member 
resolve his/her pay issue directly). Other complaints are best 
resolved by referring the complainant to another agency. In 
these cases the IG will send the member to a more appropriate 
agency such as Equal Opportunity Office if the complainant is 
alleging sexual harassment. For the cases that warrant an IG 
investigation, then the IG will submit a letter of appointment 
to his/her commander and an investigation into the alleged 
wrongdoing will be conducted (reprisal complaints are 
investigated through the IG investigative process). Finally, if 
the complaint is analyzed and no evidence of wrongdoing is 
discovered the Air Force will recommend to DOD, IG the case be 
dismissed. DOD IG is the final approval authority for reprisal 
complaints.
    In calendar year 2008, the Air Force closed 8,904 
complaints: 5,123 through ASSIST; 2,351 through REFERRAL, 78 
through INVESTIGATION, and 1,352 through DISMISSAL. [See page 
29.]
     Answer 1b. Yes. The Air Force, in recent years, has been 
undergoing a transformation and the Inspector General has not 
been immune to this transformation. To that end, the Inspector 
General is currently working several initiatives that will make 
the process more timely and efficient. One initiative the AF is 
working on is the One Base--One IG concept that will allow one 
installation IG to be responsible for and respond to all 
personnel on a base. To complement this initiative we have 
started the process of streamlining the initial investigative 
phase for reprisal to allow the individual IG's to quickly 
assess the facts in a reprisal complaint during the complaint 
clarification phase and quickly move to the investigation phase 
on the cases that warrant investigation. These changes will 
allow the Air Force to provide better resolution products 
quicker, thus keeping our Airmen focused on their mission. [See 
page 29.]
     Answer 1c. Air Force leadership shares the same concerns 
as you do regarding whistleblower rights. To that end, the 
identity of all whistleblowers is closely guarded, disclosing 
it only to those who need it to resolve the issue. 
Additionally, Air Force IGs continually educate commanders, 
Airmen, and civilian members on the requirements associated 
with whistleblower rights and protections. Finally, for 
individuals who still feel uncomfortable, the Air Force allows 
anonymous reporting. [See page 29.]
                                ------                                


              RESPONSE TO QUESTION SUBMITTED BY MR. ROGERS

    General Fraser. In order to accommodate the planned 
increase in KC-135 PDMs at Tinker AFB, an additional 105 
maintenance personnel will be hired under a phased approach. 
Current Tinker AFB facilities are adequate to support the 
planned increased workload. The execution of the organic plan 
is underway to increase PDM capacity from 48 to 54 aircraft in 
FY10. [See page 21.]
                                ------                                


              RESPONSE TO QUESTION SUBMITTED BY MS. FALLIN

    General Fraser. Despite the overall reduction of 10 KC-135 
PDMs in FY10, the planned workload at Tinker AFB will increase 
from 48 in FY09 to 54 in FY10. [See page 25.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. HEINRICH

    General Fraser. The Air National Guard (ANG) plays a 
critical role for the Department of Defense, providing a 
rapidly responsive force to meet national security 
requirements. It is true that some metrics indicate an 
apparently large cost advantage for ANG units compared to 
active units. One such metric is ``operational cost per total 
aircraft inventory,'' which shows ANG unit costs to be 33% 
lower than active units. This metric does not take into account 
important differences between ANG and active units and how they 
calculate costs. For example, ANG units typically leverage the 
infrastructure of active duty or commercial facilities through 
Joint Use Agreements, yielding efficiencies that are not 
available to active duty units. Additionally, lower costs 
expressed in this metric are also due to differences in manning 
(part-time versus full-time) and significant differences in the 
number of flight hours flown by the respective units. As a 
result, it is difficult to use this metric to accurately 
compare costs of active duty and Air National Guard (ANG) 
units.
    Another metric, ``operational cost per flight hour'' 
(CPFH), includes all military personnel and Operations and 
Maintenance costs. CPFH is a more appropriate metric to compare 
costs between flying units because it scales for differing 
levels of operational activity. CPFH data in the Air Force 
Total Ownership Cost database permits a comparison of the F-16C 
and F-16D for ANG and active units from 1996 through 2006. 
During this period, Air National Guard CPFH for the F-16C was 
5.2% lower than the active duty costs in the three Air Force 
major commands (Air Combat Command, Pacific Air Forces, and US 
Air Forces Europe) that operate the F-16C.
    For the F-16D, ANG costs were 11.7% lower than active 
units. [See page 27.]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 20, 2009

=======================================================================
      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Army combat units are under significant stress and 
soldiers are spending little time at home between combat deployments. 
This is especially true for the Combat Service and Combat Service 
Support (CS/CSS) units. These units, whose duties range from medical to 
maintenance, have been heavily taxed due to their unique missions and 
limited depth. As troop levels are reduced in Iraq there will be a 
greater need for the CS/CSS soldiers. At the same time, operations in 
Afghanistan are increasing, and the austere nature of that theater will 
require more CS/CSS troops instead of the contractors that provided so 
much support for our forces in Iraq. What are you doing to increase the 
number and availability of CS/CSS units? Will the Army rebalance itself 
to increase the mix of support to combat troops? How will stopping the 
growth of the Army's Brigade Combat Teams at 45 improve or exacerbate 
the stress on CS/CSS troops? How does this budget request address this 
urgent requirement?
    General Chiarelli. In 2007, the administration recognized that Army 
resources were insufficient to meet current operational demand and that 
continued stress on the force would lead to unacceptable strategic 
risk. The President, authorized by Congress, approved an end strength 
increase of 74.2K across all three components (65K AC, 8.2K ARNG, 1K 
USAR). Implementation of the end strength increase, in conjunction with 
the rebalancing and right-sizing of structure across and within 
components into needed Operating Force capabilities, was intended to 
increase Brigade Combat Team (BCT) surge capacity; expand capabilities 
for missile defense, Military Police (MP), Engineer, Improvised 
Explosive Device threat mitigation, force protection, intelligence, and 
communications; and provide key CS/CSS enablers to mitigate persistent 
shortfalls. The rebalancing of Army structure is a continuous effort 
requiring frequent review and adjustment to meet projected operational 
demand within authorized resources. Force structure change is not 
immediate, requiring time and resources. Some examples of programmed 
growth from FY06 to FY15 include 47 MP Combat Support Companies, 9 Air 
Ambulance Companies, 12 Explosive Ordnance Disposal Companies, 117 
Civil Affairs Companies, and 107 Psychological Operations (PSYOP) 
Detachments. Stopping the growth of the Army's BCTs at 45 while 
maintaining programmed end strength (a key point), will address CS/CSS 
unit stress by reducing force structure demand on the Army's end 
strength, improving unit manning levels, and eliminating the routine 
use of stop loss.
    The President's Budget Request for fiscal year 2010 adds additional 
Army Force Structure for Echelons above Brigade, with over 100 new Army 
units of various sizes (detachments to full-size battalions). These new 
units are part of the phased implementation of Grow the Army and other 
force structure initiatives. They provide the Army with operational 
depth needed to sustain enduring levels of force deployment to meet 
global commitments. Included are many high-demand engineer, military 
police, signal, intelligence, air defense, and transportation units. 
This growth will help reduce the stress for these high-demand units. In 
addition, this budget provides increased home station training funding 
to support the modular force design which will bring the Army closer to 
a balanced training program for the entire Force.
    Mr. Ortiz. The budget request includes funding for 550 tank 
training miles in FY10. This represents a decrease in miles from the 
FY09 budgeted level of 608 miles. Tank miles are a vital part of the 
training required to restore the Army's ability to conduct full-
spectrum combat operations. How do you justify a decrease in training 
miles considering the current readiness shortfalls and the need to 
restore full-spectrum combat capability?
    General Chiarelli. The Army's FY09 budget request for 608 miles was 
reduced to 547 miles in the FY09 Appropriations bill. The FY10 budget 
level of 550 miles acknowledges prior year Congressional actions and 
recognizes the associated level of risk inherent in this highly dynamic 
period of rotational deployments. The principal challenges impacting 
Army training and readiness are a function of current demand for forces 
exceeding supply. This high demand shortens dwell time for units and 
requires mission-specific focused training which increases readiness to 
meet directed missions at the expense of core unit and individual 
tasks. The Army will evaluate unit training requirements during the 
execution years to reassess and mitigate risks to readiness as 
necessary. The Army remains committed to achieving a balanced force 
capable of executing a broad range of requirements encompassing 
operational themes of peace operations, peacetime military engagement, 
limited intervention, irregular warfare and major combat operations.
    Mr. Ortiz. A key tenet of the Navy's ability to maintain forward-
deployed and surge-ready naval forces is the proper resourcing, 
planning and execution of maintenance needed to prepare and sustain its 
ships. The Fleet Response Plan, when fully funded, should enable the 
Navy to continuously deploy three Carrier Strike Groups to points 
around the globe, surge three more in 30 days and deploy a seventh in 
90 days. What happens when sufficient resources are not found and 
accounts are not fully funded? What level of strategic risk is Navy 
asking the Nation to accept by not fully funding Navy O&M requirements?
    Admiral Walsh. When fully resourced, the Fleet Response Plan (FRP) 
enables us to deploy three Carrier Strike Groups, surge three more in 
30 days, and deploy a 7th in 90 days. When sufficient resources are not 
found, the Navy must strike a balance between risk to our future 
readiness and current operational requirements. The Navy's baseline 
budget does not deliver an adequate FRP posture for FY 2010 projected 
security requirements, requiring the Navy to rely on baseline and 
Overseas Contingency Operations (OCO) funding to meet COCOM 
requirements. While the Department's FY 2010 baseline and OCO funding 
will meet the projected Navy Presence Requirements of three Carrier 
Strike Groups (CSGs), it assumes risk in the FRP Surge required to meet 
emergent COCOM requirements and Major Combat Operation (MCO) timelines 
with the required assets.
    Mr. Ortiz. Operational tempo for Navy surface combatants has 
increased 19% since 2000. While maintenance and ship operating budgets 
also have increased, the focus of those additional maintenance dollars 
were aimed at near-term ship readiness, making the surface fleet much 
more susceptible to changes in operational tempo. Is the Navy funding 
the maintenance it needs or doing the maintenance it has funding for? 
When you look at the sharp rise in operational tempo and the slight 
rise in maintenance funding, are we funding short-term readiness gains 
in operational availability at the expense of maintenance required to 
fund long-term readiness?
    Admiral Walsh. The Navy makes every effort to fund the maintenance 
it needs. In FY10, fiscal constraints and competing requirements 
resulted in a budget request that included a $200 million unfunded 
requirement in the ship depot maintenance account. The Navy is 
completing the maintenance necessary to support operational tasking. 
However, there are early signs that surface ship material readiness is 
being impacted by three things: the lack of refined and technically 
validated Integrated Class Maintenance Plans (ICMP) to define the 100% 
maintenance requirement for meeting expected service life, the current 
process for executing maintenance, and the amount of surface ship 
maintenance funding. PB10 ship maintenance funding is reliant on 
baseline budget and OCO funding to meet the surface ship maintenance 
requirements for FY10.
    In the last several years, the Navy and Surface Warfare Enterprise 
have taken specific steps to address these issues. The Naval Sea 
Systems Command (NAVSEA) has allocated more technical resources to 
surface ships and is working to establish technical redlines for our 
surface ships that will help establish the foundation for each ship 
class ICMP. NAVSEA has also chartered the standup of SEA 21 with 
assigned responsibilities as the full-spectrum life cycle manager for 
surface ships. SEA 21 is leading the effort to conduct a bottom up 
review of each ICMP and provide work package development and oversight 
similar to what we have today on our submarines and aircraft carriers. 
SEA 21 has also established the Surface Ship Life Cycle Management 
(SSLCM) activity to manage work package development and ICMP.
    Finally, from a resource perspective, ship maintenance must be part 
of a balanced approach within our operating accounts to ensure COCOM 
demand is being met, with acceptable risk, while at the same time 
ensuring that critical maintenance necessary to ensure future readiness 
is being accomplished.
    Mr. Ortiz. How would failure to achieve the 11-carrier waiver 
affect the Navy's ship maintenance cost and schedule?
    Admiral Walsh. The extension of CVN 65 until 2015 would also result 
in a domino effect of delays in scheduled ship maintenance and docking 
periods and reduce overall aircraft carrier availability while 
providing only one additional deployment for CVN 65.
    Navy has requested a legislative waiver to temporarily decrease the 
number of active duty aircraft carriers from 11 to 10 between the 
planned November 2012 inactivation of CVN 65 (USS Enterprise) and the 
September 2015 delivery of CVN 78 (USS Gerald R. Ford). If the 
legislation is not approved, a minimum of $2.8B in funding, which 
includes Operations and Maintenance, Navy (OMN), Military Personnel, 
Navy (MPN), and Shipbuilding and Conversion, Navy (SCN), would be 
required to extend CVN 65 until 2015. If additional funding is not 
provided, the Navy would allocate OMN, MPN and SCN funds from other 
requirements impacting the Navy's ability to meet operational demands.
    Mr. Ortiz. How long will it take the Marine Corps to recover key 
core warfighting capabilities following cessation of operations in Iraq 
and Afghanistan?
    General Amos. Once operations are concluded in Iraq and 
Afghanistan, we estimate it would take about 36 months to fully reset 
our equipment assets and reconstitute full-spectrum Marine Air Ground 
Task Force (MAGTF) training readiness. This projection assumes that 
adequate resources will be provided and sustained to continue our RESET 
and modernization plans which are key to restoring current and future 
warfighting capabilities. We anticipate the Marine Corps restoration of 
training readiness to include: 6-18 months for unit training; 
concurrently 24-36 months for integrated combined arms training; and 
concurrently 36 months for initial amphibious training. In addition, 
large-scale Command and Control training and joint/combined exercises 
are also critical to regaining our full-spectrum capability. We are 
committed to maintaining our expeditionary capability as the Nation's 
force in readiness, and with your continued support we can achieve 
these timelines.
    Mr. Ortiz. Where in the continental United States does the Marine 
Corps have the ability to bring brigade-size force together for a live-
fire training exercise? How important is the 29 Palms facility to 
retention of the Marine Corps' warfighting capabilities?
    General Amos. The capability for the Marine Corps to bring together 
a brigade-sized force for a live-fire exercise does not currently 
exist. As captured in detail in the Marine Corps' response to similar 
questions contained in Section 2829 of National Defense Authorization 
Act (NDAA) Fiscal Year (FY) 2009, geographical and fiscal constraints 
preclude the Marine Corps from addressing existing training space 
shortfalls. Currently, major deficits in the Marine Corps' ability to 
train to the many missions that it faces; the largest gaps in training 
capability include:
    The inability to exercise a large-scale (brigade level) MAGTF in a 
``live'' training scenario. The reach of modern weapon systems and 
tactical doctrine require a much larger land and airspace area than the 
Marine Corps currently has available. Only the Marine Corps Air Ground 
Combat Center (MCAGCC)/Marine Air Ground Task Force Training Command 
(MAGTFTC) at Twenty-nine Palms, California comes close but given its 
many other missions and its limited size relative to the area required 
for Marine Expeditionary Brigade (MEB) training, it cannot fully 
accommodate a MEB-size unit.
    The USMC has an ongoing project to expand the MCAGCC in order to 
enable a large-scale, live-fire and maneuver training exercise capable 
of supporting MEB training sufficient to allow 48 to 72 hours of live-
fire and maneuver by three battalions converging on a single MEB-level 
objective.
    As stated in the Marine Corps' response to questions contained in 
Section 2829 of NDAA FY08, MCAGCC Twenty-nine Palms is critical to the 
retention of Marine Corps warfighting capabilities. Today, the Combat 
Center, as headquarters to the Marine Air Ground Task Force Training 
Command (MAGTFTC), provides (1) the principal venue for advanced, 
Service-level core capability/core competency training, Service-level 
live-fire/fire and maneuver ranges, and training for deploying Marine 
Corps forces; (2) the center of excellence for developing and executing 
combined arms live-fire training of the Marine Air Ground Task Force 
(MAGTF); and (3) multiple ranges replicating the urban environment. 
Additionally, Twenty-nine Palms is home station to ground combat, 
aviation, and logistics units. The development of this premiere 
training installation has been driven primarily by the need to support 
the evolving training requirements of the MAGTF resulting from new 
doctrine, tactics, weapons systems, and missions. These have steadily 
expanded the operational pace and required maneuver space of modern 
warfare.
    Mr. Ortiz. The Marine Corps has accepted considerable risk in its 
fiscal year 2010 depot maintenance accounts. How important is reset to 
the Marine Corps' ability to sustain equipment for current operations 
in Iraq and Afghanistan and to provide for ongoing training of non-
deployed and next-to-deploy units? What is the O&M funding profile for 
reset in the fiscal year 2010 budget request?
    General Amos. The funding profile for reset in the USMC FY2010 
Overseas Contingency Operations budget includes $950M in organization, 
intermediate and depot level maintenance, as well as contractor 
logistics support. Reset funding is critical for mission 
accomplishment. USMC will always ensure that deploying units have the 
best equipment available at the expense of home station inventory if 
the availability of a specific piece of gear is limited. (Reset funding 
is not included in our operations and maintenance baseline funding 
request.) Depot maintenance for aviation is captured in the Navy's 
operations and maintenance budgets.
    Mr. Ortiz. If the Congress were to impede the retirement of fighter 
aircraft as proposed in the FY10 budget request, what would the impact 
be on the Air Force's O&M account?
    General Fraser. The impact of not allowing the Air Force to retire 
250 fighter aircraft in FY10 would result in adding back $328M for 
32,183 O&M flying hours; $17M in other O&M support costs for squadron 
operations; and realigning 4K positions from critical skills and new 
and emerging Air Force missions back to their original career field. 
Total O&M funding impact in FY10 is $345M.
    Mr. Ortiz. How do readiness rates for deployed units compare to 
those within CONUS? What impact are these readiness rates having on 
your ability to train your forces when not deployed?
    General Fraser. AF training and exercises are aligned with our AEF 
rotations and deployments to ensure we deploy mission-ready units from 
CONUS. USAF units remain fully ready for their deployed missions while 
in the AOR; however, some units' full-spectrum mission readiness erodes 
while deployed.
    Upon return to CONUS from deployment, this erosion causes many 
units to require additional training to get them back to their fully 
mission-ready status. This creates additional demands on training 
resources. The overall impact is a ``time-lag'' in regaining a unit's 
full-spectrum readiness as a result of balancing their training 
requirements against the requirement to ensure a unit preparing to 
deploy is fully mission-ready in time for their AEF rotation.
    Mr. Ortiz. In March, Chairman Skelton and Chairman Ortiz requested 
that the Department and the military services halt any pending A-76 
studies and conduct a thorough review of the program. What is the Air 
Force doing to comply with that request? Have you received any guidance 
from OSD on the matter? Will a halt on A-76 activities impact your 
fiscal year 2010 budget request?
    General Fraser. In accordance with the FY09 Omnibus Appropriations 
Act, we have not initiated any new public-private competitions this 
fiscal year. We are also currently reviewing three ongoing Air Force A-
76 studies to determine if we should proceed or request OSD 
cancellation. Our internal review of these competitions should be 
completed by 31 July 2009.
    We have received no additional guidance regarding A-76 other than 
the OSD Acquisition, Technology and Logistics' 15 April 2009 response 
to Chairman Skelton and Chairman Ortiz stating DOD will not announce 
any new A-76 competitions this fiscal year and is reviewing all ongoing 
competitions.
    Halting A-76 activity would not impact fiscal year 2010 budget 
requests as A-76 programming is performed at the conclusion of the 
competition.
    Mr. Ortiz. Secretary Gates has moved aggressively to convert many 
contract positions to DOD civilian billets. In your fiscal year 2010 
budget request, it appears that you are planning to in-source 4,000 
positions during the course of the year. How did you arrive at this 
number? Was any analysis done to determine which billets would be 
converted or were the conversions merely levied across the Department?
    General Fraser. OSD levied conversion targets on the Service 
Components and subsequently removed contract dollars from the Air 
Force. As a result, they assumed a 40% savings and the remaining 
dollars were used to fund civilian manpower authorizations for in-
sourcing. The Air Force is in the process of identifying specific in-
sourcing candidates based on mission requirements, Inherently 
Governmental and Commercial Activities Review, and individual business 
case analysis.
    Mr. Ortiz. Although I support the Secretary's efforts to reshape 
the DOD workforce to ensure we have the proper skill sets and 
capabilities in that workforce, I'm concerned that you may be 
implementing it in a manner that is counter-productive and could have a 
long-term negative impact. As we saw with the A-76 program, measuring 
the services against mandatory out-sourcing targets resulted in the 
execution of A-76 activities that may not have been in the best 
interest of the service or the Department. How can we be assured that 
this in-sourcing initiative will be executed appropriately and not just 
in response to random goals and budget reductions levied on the 
services by OSD?
    General Fraser. Both public-private competitions and in-sourcing, 
when selectively applied, are useful tools for ensuring workload is 
performed by the most cost-effective means. In-sourcing candidates will 
be evaluated on a case-by-case basis. In-sourcing decisions will be 
based on Inherently Governmental and Commercial Activity Review, 
mission requirements and business case analysis as appropriate.
    Mr. Ortiz. The Air Force has proposed to defer investments in 
facilities sustainment and restoration. The Air Force is requesting 
funds necessary to support only 59% of the required facility 
recapitalization. Why did the Air Force elect to take risk in the 
facility accounts and delay critical restoration and modernization 
activities? What is the long-term effect of a delay in funding 
restoration and modernization activities?
    General Fraser. Modernizing the Air Force's aging aircraft fleet is 
our toughest challenge; in order to recapitalize and modernize, the Air 
Force must take risk in some areas. Because the Air Force invested 
heavily in infrastructure in the past (with the outstanding support of 
Congress), we decided taking risk in our facility accounts was 
acceptable for a short duration.
    The Air Force views installations as critical war-fighting 
platforms that provide a core AF expeditionary combat capability. We 
will ensure our risk taken in our facilities and infrastructure will 
not jeopardize our ability to conduct critical operations from our 
installation weapon systems. We intend to mitigate potential shortfalls 
in MILCON and facility maintenance funding by bolstering our 
restoration and modernization programs as much as possible. Using an 
enterprise portfolio perspective, we intend to focus our limited 
resources only on the most critical physical plant components, by 
applying demolition and space utilization strategies to reduce our 
footprint, aggressively pursuing energy initiatives, continuing to 
privatize family housing and modernizing dormitories to improve quality 
of life for our Airmen.
    We really appreciate the efforts of Congress with the recent 
passing of the American Recovery and Reinvestment Act of 2009. This 
legislation will help us reduce our facility restoration, 
modernization, and recapitalization backlog of over $16B by $1.5B. To 
date, we awarded over $600M worth of these projects and expect to have 
the most of the remainder awarded by the end of September 2009.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. Secretary Gates has moved aggressively to convert many 
contract positions to DOD civilian billets. How did you arrive at the 
number of billets to be outsourced in fiscal year 2010? Was any 
analysis done to determine which billets would be converted or were the 
conversions merely levied across the Department? Do you have any 
concerns that the ``cost savings'' anticipated with this in-sourcing 
activity as reflected in your FY2010 budget request may not be 
realized?
    General Chiarelli. The in-sourcing target was levied by the Office 
of the Secretary of Defense and not developed by the Army. Although the 
Army had started to implement a review of its contractor inventory 
established pursuant to the National Defense Authorization Act for 
Fiscal Year 2008 in January 2009, prior to the levying of these targets 
in May 2009, this review did not inform the initial targets established 
by the Office of the Secretary of Defense. However, 8,379 of the 9,913 
positions programmed and budgeted for in-sourcing from FY10-15 were 
subsequently validated as of June 26, 2009, by the contractor inventory 
review process as implicating acquisition functions, functions closely 
associated with inherently governmental functions, inherently 
governmental functions, and unauthorized personal services. (As of 
August 15, 2009, the contractor inventory review process identified 
9,471 out of 11,084 positions programmed and budgeted for in-sourcing 
from FY10-15 as involving acquisition functions, inherently 
governmental functions, closely associated with inherently governmental 
functions, and unauthorized personal services.) Reprogramming may be 
required to align initial funding targets to positions where contractor 
inventory reviews support in-sourcing. Based on prior Army experience 
with in-sourcing about 1162 positions, the savings varied based on 
function and location and averaged at 33 percent and not the 40 percent 
assumed in the budget request.
    Mr. Forbes. Although I support the Secretary's efforts to reshape 
the DOD workforce to ensure we have the proper skill sets and 
capabilities in that workforce, I'm concerned that you may be 
implementing it in a manner that is counter-productive and could have a 
long-term negative impact. As we saw with the A-76 program, measuring 
the services against mandatory out-sourcing targets resulted in the 
execution of A-76 activities that may not have been in the best 
interest of the service or the Department. How can we be assured that 
this in-sourcing initiative will be executed appropriately and not just 
in response to random goals and budget reductions levied on the 
services by OSD?
    General Chiarelli. The Army established the contractor inventory 
prescribed by the National Defense Authorization Act for Fiscal Year 
2008 and completed as of June 26, 2009, a thorough review of 52 percent 
of the activities on that inventory to identify 1,085 inherently 
governmental functions, 12,895 closely associated with inherently 
governmental functions and 40 unauthorized personal services. This 
review involved detailed analysis of how commands performed contracted 
functions within its organizations, looking at the total manpower mix 
of military, civilian employee and contractor within that organization. 
A comprehensive checklist compiled from the relevant statutory 
definitions and criteria for in-sourcing was used by the Commands when 
performing this analysis (see checklist at http://www.asamra.army.mil/
insourcing). In addition, Army contracting activities will not process 
an action for contract services absent a certification from the 
requiring activity with this checklist attached. The Army Audit Agency 
is in the process of auditing the application of this checklist 
throughout the Army. Based on the above reviews completed as of June 
26, 2009, 8,379 of the 9,913 positions programmed and budgeted for in-
sourcing from FY10-15 were subsequently validated by the contractor 
inventory review process as implicating acquisition functions, 
functions closely associated with inherently governmental functions, 
inherently governmental functions, and unauthorized personal services. 
(As of August 15, 2009, the contractor inventory review process 
identified 9,471 out of 11,084 positions programmed and budgeted for 
in-sourcing from FY10-15 as involving acquisition functions, inherently 
governmental functions, closely associated with inherently governmental 
functions, and unauthorized personal services.) Reprogramming may be 
required to align initial funding targets to positions where contractor 
inventory reviews support in-sourcing. We have made the case that any 
future in-sourcing candidates should be identified based on this 
deliberative process and expect that our recommendations may be 
followed.
    Mr. Forbes. Secretary Gates has moved aggressively to convert may 
contract positions to DOD civilian billets. How did you arrive at the 
number of billets to be outsourced in fiscal year 2010? Was any 
analysis done to determine which billets would be converted or were the 
conversions merely levied across the Department? Do you have any 
concerns that the ``cost savings'' anticipated with this in-sourcing 
activity as reflected in your FY2010 budget request may not be 
realized?
    Admiral Walsh. The number of billets to be in-sourced in FY2010 
were passed from OSD to the components as goals. Navy is working to 
solidify a comprehensive plan to meet our goal. The Budget Submitting 
Offices are currently assisting in the analysis to identify specific 
functions as in sourcing candidates. Once the analysis is complete we 
will have a better understanding of how to achieve the potential ``cost 
savings.''
    Mr. Forbes. Although I support the Secretary's efforts to reshape 
the DOD workforce to ensure we have the proper skill sets and 
capabilities in that workforce, I'm concerned that you may be 
implementing it in a manner that is counter-productive and could have a 
long-term negative impact. As we saw with the A-76 program, measuring 
the services against mandatory out-sourcing targets resulted the 
execution of A-76 activities that may not have been in the best 
interest of the service or the Department. How can we be assured that 
this in-sourcing initiative will be executed appropriately and not just 
in response to random goals and budget reductions levied on the 
services by OSD?
    Admiral Walsh. As we move forward toward implementing requirements 
of DOD directed resource management adjustments and Sec 324 FY2008 
NDAA, Navy is looking at the workforce from a Total Force perspective. 
We are reviewing our core capabilities and skill sets necessary to meet 
emerging requirements. In-sourcing provides us an additional avenue to 
shape the workforce properly to meet these requirements and maximizes 
our ability to carry out the mission with the most cost-effective 
workforce.
    Navy views in-sourcing as an opportunity. As we look at the 
workforce from a Total Force perspective, there are core capabilities 
and skill sets required for emerging capabilities. In-sourcing provides 
us an additional avenue to shape the workforce properly to meet these 
requirements.
    Mr. Forbes. How did you arrive at the number of billets to be 
outsourced in fiscal year 2010? Was any analysis done to determine 
which billets would be converted or were the conversions merely levied 
across the Department? Do you have any concerns that the ``cost 
savings'' anticipated with this in-sourcing activity as reflected in 
your FY2010 budget request may not be realized?
    General Amos. Working with the assigned OSD civilian hire targets, 
the Marine Corps has convened a working group consisting of 
headquarters activities, contracting officers, HR community, financial 
managers and the field to determine where in-sourcing makes sense and 
establish the permanent civilian billet requirements to be added, 
contracts re-scoped for cost savings or eliminated in FY 2010. The 
realignments of funding and civilian labor in FY 2010 were based on the 
dollar value of contracts identified in budget justification material. 
Those numbers were adjusted to reflect a rebalancing of contracts 
versus in-house labor that corresponds with our pre-war levels of 
funding and manning. The notional targets distributed by OSD were based 
on this premise. Currently, we believe the personnel goals are 
attainable in FY 2010 but remain concerned about the savings targets.
    Mr. Forbes. Although I support the Secretary's efforts to reshape 
the DOD workforce to ensure we have the proper skill sets and 
capabilities in that workforce, I'm concerned that you may be 
implementing it in a manner that is counter-productive and could have a 
long-term negative impact. As we saw with the A-76 program, measuring 
the services against mandatory out-sourcing targets resulted the 
execution of A-76 activities that may not have been in the best 
interest of the service or the Department. How can we be assured that 
this in-sourcing initiative will be executed appropriately and not just 
in response to random goals and budget reductions levied on the 
services by OSD?
    General Amos. The execution plan for Marine Corps has three phases. 
First, we will tackle FY10, then FY11 and finally, the third phase will 
focus on FY12-15 adjustments. The first phase will focus on 
professional administrative and management support product services 
contracts. FY11 and out considerations will include all types of 
contracts.
    USMC will work with the Navy and OSD to realign funding as 
necessary during the year of execution if problems arise with in-
sourcing execution. OSD continues to work with the services to prepare 
for the manpower and funding shift and has highlighted the need for a 
prudent civilian/contractor balance that takes into consideration pay, 
training and facilities needed to support the increased civilian 
workforce. A critical component to overall execution will be the 
ability of the Department of Navy human resources community and 
individual managers to handle the volume of personnel actions necessary 
to bring a large number of civilians on board.
    Mr. Forbes. Secretary Gates has moved aggressively to convert may 
contract positions to DOD civilian billets. How did you arrive at the 
number of billets to be outsourced in fiscal year 2010? Was any 
analysis done to determine which billets would be converted or were the 
conversions merely levied across the Department? Do you have any 
concerns that the ``cost savings'' anticipated with this in-sourcing 
activity as reflected in your FY2010 budget request may not be 
realized?
    General Fraser. OSD levied conversion targets on the Service 
Components and subsequently removed contract dollars from the Air 
Force. As a result, they assumed a 40% savings and the remaining 
dollars were used to fund civilian manpower authorizations for in-
sourcing. The Air Force is in the process of identifying specific in-
sourcing candidates based on mission requirements, Inherently 
Governmental and Commercial Activities Review and individual business 
case analysis. Our preliminary findings are that 40% savings are 
possible.
    Mr. Forbes. Although I support the Secretary's efforts to reshape 
the DOD workforce to ensure we have the proper skill sets and 
capabilities in that workforce, I'm concerned that you may be 
implementing it in a manner that is counter-productive and could have a 
long-term negative impact. As we saw with the A-76 program, measuring 
the services against mandatory out-sourcing targets resulted the 
execution of A-76 activities that may not have been in the best 
interest of the service or the Department. How can we be assured that 
this in-sourcing initiative will be executed appropriately and not just 
in response to random goals and budget reductions levied on the 
services by OSD?
    General Fraser. Both public-private competitions and in-sourcing, 
when selectively applied, are useful tools for ensuring workload is 
performed by the most cost effective means. In-sourcing candidates will 
be evaluated on a case-by-case basis. In-sourcing decisions will be 
based on Inherently Governmental and Commercial Activity Review, 
mission requirements and business case analysis as appropriate. In-
Sourcing candidates will be evaluated on a case-by-case basis. In-
Sourcing decisions will be based on Inherently Governmental and 
Commercial Activity Review, mission requirements, and business case 
analysis as appropriate.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. We recently learned from a press release sent by the 
Utah delegation that Dugway Proving Grounds in Utah was selected as the 
site to establish the Army's Rapid Integration and Acceptance Center 
for UAS's. I have not, however, seen this in a formal Army 
announcement. The press release states that the Rapid Integration and 
Acceptance Center would integrate systems and conduct testing on the 
Hunter, Shadow and Sky Warrior Unmanned Aerial Systems (UAS's). 
Currently a portion of this mission is conducted at Fort Huachuca and 
Yuma Proving Grounds in Arizona. Moving these missions to Dugway will 
force more than 200 hard-working employees near Fort Huachuca alone out 
of a job. It is my understanding that the original plan for the UAS 
Program Manager was to conduct a series of final visits and site 
assessments. From these visits they were to make an informed decision 
about where this mission should be established based on the 
requirements and available assets at the location. PM UAS subsequently 
canceled their scheduled visits to Ft. Huachuca and Yuma just prior to 
the announcement by the Utah Delegation. In light of these canceled 
site surveys, please explain what criteria were used to make this 
decision?
    General Chiarelli. Program Manager-UAS has no current activities 
being conducted at Yuma Proving Ground (YPG). Yuma was one of the sites 
being surveyed. The Warrior-class UAS test activities are currently 
being conducted at El Mirage, outside of Victorville, CA. AAI (Shadow) 
has about 75 personnel and Northrop Grumman (Hunter) has about 15 
personnel supporting their respective programs in the Fort Huachuca 
area. The final survey trip was cancelled after Dugway Proving Ground 
(DPG) was selected as the site for the RIAC. The last surveys were for 
final confirmation of information that had already been gathered during 
previous surveys. This data was already obtained from the respective 
staffs at the surveyed locations. The selection criteria used to make 
the decision included:

    (1)  Maximum amount of restricted airspace available to fly 
unmanned aircraft without requiring a Certificate of Authorization 
(COA) from the Federal Aviation Administration. A COA requires a chase 
plane for UAS operations, which causes additional costs to the program.

    (2)  A very clean frequency spectrum, not only for current needs, 
but for future data and video links and payloads.

    (3)  Ability to launch and deploy external stores and weapons.

    (4)  Ability to support large-scale joint interoperability testing 
with multiple aircraft and control stations.

    (5)  Available facilities or ability to expand with new facilities 
to support current and future growth.

    (6)  High priority with maximum flexibility to fly unimpeded when 
needed.

    (7)  The ability to consolidate all the activities at one location.

    (8)  During the original analysis of the three most likely 
locations (Fort Huachuca, YPG, and DPG), Dugway was the clear lead in 
every criteria.

    Ms. Giffords. Fort Huachuca owns a significant piece of restricted 
airspace that only they control, free of commercial and general air 
traffic. It is also home to the Electronic Proving Grounds, free of 
excessive electromagnetic interference, ideal for testing 
communications systems. How does Dugway's airspace, shared with Salt 
Lake International Airport and Hill Air Force Base and with a busy 
electromagnetic spectrum give it an operational advantage?
    General Chiarelli. Dugway's airspace is restricted and controlled 
by the U.S. Army and not shared by Salt Lake International Airport. 
Dugway's airspace is as large as that at Fort Huachuca, but 
substantially less congested, not having to deal with the Unmanned 
Aircraft System (UAS) Training Center, as well as manned and unmanned 
traffic (border patrol missions and other training activities) at Libby 
Army Airfield. Additionally, with prior coordination, additional 
restricted airspace controlled by the U.S. Air Force could be made 
available if needed for weapons firing and long-range datalink testing. 
Due to all the UAS efforts (and being home to substantial electronics 
testing at the Electronic Proving Grounds) at Fort Huachuca, the 
frequency spectrum is challenging with shared frequencies within the 
operating bands of UAS programs. According to the Department of Defense 
frequency database, all frequencies required for current needs and 
future plans are available at Dugway with minimal interference.
    Ms. Giffords. While consolidating the mission at one location may 
be more economical, with a lack of final surveys do you think your 
staff fully considered the costs of this move to Dugway?
    General Chiarelli. Surveys were started in March 2008 through April 
2009. The final survey was scheduled to validate previous survey 
results. Costs were considered during the surveys. In fact, every 
location surveyed required additional infrastructure and associated 
costs. Fort Huachuca was the most costly due to limited facilities 
available for consolidated activities due to its current and planned 
missions as indicated by the Garrison staff.
    Ms. Giffords. There are already substantial facilities at Fort 
Huachuca for the UAS Mission and more facilities under construction and 
to begin construction shortly. There are also well embedded and deeply 
rooted industry partners in the areas performing the production and 
testing prior to final acceptance. Are there similar substantial and 
robust facilities and contractor presence at Dugway?
    General Chiarelli. There were no existing facilities available at 
Fort Huachuca for consolidation of Army UAS activities at that 
location. Fort Huachuca RIAC activities would be in three different 
locations unless they were to build an entirely new complex, including 
runways, office and hangar space, etc.
    Dugway offers an airfield that allows for at least three 
simultaneous UAS flight activities to occur, one from a 13,000 foot 
long runway that has minimal air traffic, one from a taxiway over 8,000 
feet long, and another from taxiway of over 2,000 feet. Dugway also has 
a 20,000 square foot hangar, almost half of which is being made 
available until suitable maintenance buildings can be built. 
Additionally, Dugway offers an expansive area for any new facilities 
needed, all adjacent to the existing ramp and accessible to the 
runways.
    Ms. Giffords. What are the plans for relocating the skilled workers 
with unique experience on the Shadow and Hunter UAS systems from Fort 
Huachuca to Dugway and how many of these employees are expected to 
actually relocate to Dugway? How will this potential loss of skilled 
employees impact the mission?
    General Chiarelli. Each prime contractor has developed their own 
incentive packages for moving their existing personnel to Dugway. In 
early June 2009, AAI expected more than 50 percent of their Shadow 
workforce to move in early June 2009. Subsequently, AAI offered an 
incentive package, so the number of AAI personnel who will actually 
move will not be known until July 31, 2009. Several of the AAI 
employees at Fort Huachuca will most likely accept positions with the 
Unmanned Aircraft System Training Brigade (UASTB) located at Fort 
Huachuca thereby minimizing the impact to the families that choose to 
stay at Fort Huachuca versus moving to Dugway. Fort Huachuca's current 
mission will be minimally impacted based on the phased approach to 
standing up the activities at Dugway. Northrop Grumman is also moving 
in a phased approach, although there are substantially fewer personnel 
to be moved. It is expected that over 50 percent of the Northrop 
Grumman employees will move to Dugway. There is no expected impact to 
the Hunter mission due to the move. The role of the UASTB will increase 
with the addition of training for the Extended Range Multi-purpose 
(ERMP) UAS that begins this fall with ERMP Quick Reaction Capability-2, 
allowing further employment opportunities for AAI and Northrop Grumman 
personnel currently located at Fort Huachuca. We are attempting to 
mitigate the impact to Fort Huachuca by pursuing a phased approach to 
standing up activities at Dugway.

                                  <all>

</pre></body></html>
